OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
FINANCIAL STATEMENTS FOR
FISCAL YEARS 2012 AND 2011
AUDIT REPORT NO. 0-000-13-001-C
NOVEMBER 16, 2012




WASHINGTON, D.C.
   Office of Inspector General

   November 16, 2012

   MEMORANDUM

   TO:                  David D. Ostermeyer, Chief Financial Officer

   FROM:                Tim Cox, AIG/A

   SUBJECT:             Audit of USAID’s Financial Statements for Fiscal Years 2012 and 2011

   The Office of Inspector General (OIG) is transmitting its report on the Audit of USAID’s Financial
   Statements for Fiscal Years 2012 and 2011. Pursuant to the Government Management Reform
   Act of 1994, Public Law 103–356, USAID is required to prepare consolidated financial
   statements for the fiscal year. Office of Management and Budget (OMB) Circular A–136,
   “Financial Reporting Requirements,” requires USAID to submit a Performance and
   Accountability Report, including audited financial statements, to OMB, the Department of the
   Treasury, and the Government Accountability Office by November 16, 2012. In accordance with
   the requirements of OMB Circular A–136, USAID has elected to prepare an alternative Agency
   Financial Report that includes an Agency Head Message, Management’s Discussion and
   Analysis, and a Financial Section.

   OIG has issued a qualified opinion on USAID’s principal financial statements for fiscal year 2012
   and an unqualified opinion on the 2011 financial statements. With respect to internal control, we
   identified two deficiencies that we consider material weaknesses. The material weaknesses
   pertain to USAID’s processes for (1) reconciling its fund balance with the U.S. Treasury and (2)
   recording adjustments to the general ledger. Additionally, we identified six deficiencies in
   internal control that we consider significant deficiencies. The significant deficiencies pertain to
   USAID’s processes for (1) reconciling loans receivable, (2) deobligating unliquidated
   obligations, (3) accounting for advances, (4) estimating and recording accounts payable and
   accrued expenses, (5) accounting for payroll activities, and (6) reconciling intragovernmental
   transactions.

   We found no instances of substantial noncompliance with requirements for federal financial
   management systems, federal accounting standards, or the U.S. Standard General Ledger at
   the transaction level as a result of our tests required under Section 803(a) of the Federal
   Financial Management Improvement Act of 1996 (FFMIA). However, we reported one
   significant deficiency in the Agency’s annual Federal Information Security Management Act
   report, No. A-000-13-003-P dated November 14, 2012, which we classified as an instance of
   substantial noncompliance with FFMIA as required by OMB Bulletin 07-04, “Audit Requirements
   for Federal Financial Statements.”



U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov/oig
This report contains six recommendations to improve USAID’s internal control over financial
reporting.

We have considered your response to the draft report and the recommendations included
therein. We acknowledge your management decisions on the recommendations. Please
forward all information to your Office of Audit, Planning and Coordination for final action. (See
Appendix II for USAID’s Management comments.)

We appreciate the cooperation and courtesies extended to us during the audit. OIG is looking
forward to working with you on our audit of USAID’s fiscal year 2013 financial statements.
CONTENTS
Summary of Results ..................................................................................................... 1

Background ................................................................................................................... 2

     Audit Objective ........................................................................................................ 2

Independent Auditor’s Report on USAID’s Financial Statements ............................. 4

Report on Internal Control............................................................................................ 6

     Material Weaknesses .............................................................................................. 7

     USAID Recorded Unsupported Adjustments to Bring Its Fund
     Balance With Treasury Account Into Agreement With the U.S.
     Treasury’s Balance ................................................................................................... 7

     USAID Made Adjustments to Various Accounts in its General
     Ledger That it Could Not Justify ................................................................................ 8

     Significant Deficiencies ........................................................................................ 11

     USAID’s Process for Reconciling Loans Receivable
     Is Not Effective and Does Not Resolve Differences in a Timely
     Manner .................................................................................................................... 11

     USAID’s Process for Reviewing and Deobligating Unliquidated
     Obligations Is Not Effective ..................................................................................... 12

     USAID’s Process for Accounting for Advances Is Not Effective ............................... 13

     USAID’s Process to Calculate and Record Accounts Payable
     and Accrued Expenses Is Not Effective ................................................................... 15

     USAID’s Process to Record Payroll Deductions and
     Entitlement Payments Is Not Effective ..................................................................... 15

     Intragovernmental Transactions Remain Unreconciled ........................................... 17

Report on Compliance With Laws and Regulations ................................................. 19

Evaluation of Management Comments...................................................................... 21

Appendix I – Scope and Methodology ....................................................................... 23
Appendix II – Management Comments ...................................................................... 25
Appendix III – Status of Prior Year Findings and Recommendations ..................... 30
Appendix IV – Financial Statements, Notes, and
Required Supplementary Information ....................................................................... 32
SUMMARY OF RESULTS
Except for the effects of unsupported adjustments on the fiscal year (FY) 2012 financial
statements, USAID’s consolidated balance sheets, consolidated statements of net cost,
consolidated statements of changes in net position, and combined statements of budgetary
resources present fairly, in all material respects, the financial position of USAID as of
September 30, 2012 and 2011, and its net cost, net position, and budgetary resources for the
years then ended, in conformity with accounting principles generally accepted in the United
States of America.

This audit identified two deficiencies in internal control that the audit team considered material
weaknesses. They relate to USAID’s processes for (1) reconciling its fund balance with the
U.S. Treasury and (2) recording adjustments to the general ledger. The audit also identified six
significant deficiencies in internal control related to the following aspects of USAID’s financial
management processes:

   Reconciling loans receivable
   Accounting for unliquidated obligations
   Accounting for advances
   Estimating and recording accounts payable and accrued expenses
   Recording payroll deductions and entitlement payments
   Reconciling intragovernmental transactions

This audit identified no instances of substantial noncompliance with requirements for federal
financial management systems, federal accounting standards, or the U.S. Standard General
Ledger at the transaction level as a result of the tests required by Section 803(a) of the Federal
Financial Management Improvement Act of 1996 (FFMIA), Public Law 104-208. However, we
reported one significant deficiency in the Agency’s annual Federal Information Security
Management Act (FISMA) report which we classified as an instance of substantial
noncompliance with FFMIA as required by OMB Bulletin 07-04.




                                                                                                1
BACKGROUND
USAID was created in 1961 to advance U.S. foreign policy interests by promoting broad-based
sustainable development and providing humanitarian assistance. USAID has missions in more
than 100 countries, 46 of which have full accounting operations with USAID controllers. For the
fiscal year ended September 30, 2012, USAID reported total budgetary resources of
approximately $23 billion.

Pursuant to the Government Management Reform Act of 1994, Public Law 103-356, USAID is
required to submit audited financial statements to the Office of Management and Budget (OMB)
annually. Accordingly, for FY 2012, USAID has prepared the following:

   Consolidated Balance Sheet
   Consolidated Statement of Net Cost
   Consolidated Statement of Changes in Net Position
   Combined Statement of Budgetary Resources
   Notes to the Principal Financial Statements
   Required Supplementary Information
   Other Accompanying Information

AUDIT OBJECTIVE
The Office of Inspector General (OIG) performed this audit to determine whether USAID’s
principal financial statements present fairly the assets, liabilities, net position, net costs,
changes in net position, and budgetary resources for FYs 2012 and 2011.

USAID recorded a series of unsupported adjustments to bring its general ledger into agreement
with its accounting journal (budget module) and its Fund Balance With Treasury general ledger
account into agreement with the U.S. Treasury balance. Subsequently, USAID recorded
another series of unsupported adjustments to match its budgetary accounts to its proprietary
accounts. We were not able to obtain evidence to support the adjustments, nor were we able to
perform alternative procedures to determine the veracity of the adjustments.            These
unsupported adjustments resulted in changes to the accounts and statements as indicated in
Table 1.

                             Table 1. Unsupported Adjustments
                                    Increase or
         Account Name               (Decrease)                 Statement (FY 2012)
                                     ($ million)
Outstanding Advances                           478   Balance Sheet
Expended Appropriations                        418   Statement of Changes in Net Position
Undelivered Orders, Prepaid                    420   Statement of Budgetary Resources
Delivered Orders, Unpaid                       264   Statement of Budgetary Resources
Fund Balance With Treasury                    (58)   Balance Sheet
Unexpended Appropriations Used               (418)   Statement of Changes in Net Position
Operating Expenses/Program Costs             (420)   Statement of Net Costs
Delivered Orders, Paid                       (278)   Statement of Budgetary Resources
Undelivered Orders, Unpaid                   (406)   Statement of Budgetary Resources




                                                                                             2
In our opinion, except for the effects of the unsupported adjustments on the 2012 financial
statements as shown in the table above, the financial statements referred to above present
fairly, in all material respects, USAID’s assets, liabilities, and net position; net costs; changes in
net position; and budgetary resources as of September 30, 2012, and 2011, and for the years
then ended in conformity with accounting principles generally accepted in the United States of
America.

In accordance with Government Auditing Standards,1 OIG has also issued reports, dated
November 16, 2012, on its consideration of USAID’s internal control over financial reporting and
on its tests of USAID’s compliance with certain provisions of laws and regulations. These
reports are an integral part of an overall audit conducted in accordance with Government
Auditing Standards and should be read in conjunction with the independent auditor’s report.




1
    GAO-07-731G (July 2007 Revision)


                                                                                                    3
INDEPENDENT AUDITOR’S
REPORT ON USAID’S
FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of USAID as of September 30,
2012 and 2011, and the consolidated statements of net cost, consolidated statements of
changes in net position, and combined statements of budgetary resources of USAID for the
years ended September 30, 2012 and 2011. These financial statements are the responsibility
of USAID’s management. Our responsibility is to express an opinion on these financial
statements based on our audits.

We conducted the audits in accordance with auditing standards generally accepted in the
United States; generally accepted Government Auditing Standards issued by the Comptroller
General of the United States; and OMB Bulletin 07–04, “Audit Requirements for Federal
Financial Statements,” as amended. Those standards and OMB Bulletin 07–04 require that we
plan and perform the audits to obtain reasonable assurance that the financial statements are
free of material misstatements. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and the significant estimates made by management,
as well as evaluating the overall financial statement presentation. We believe that these audits
provide a reasonable basis for our opinion.

USAID recorded a series of unsupported adjustments to bring its general ledger into agreement
with its accounting journal (budget module) and its Fund Balance With Treasury general ledger
account into agreement with the U.S. Treasury balance. Subsequently, USAID recorded
another series of unsupported adjustments to match its budgetary accounts to its proprietary
accounts. We were not able to obtain evidence to support the adjustments, nor were we able to
perform alternative procedures to determine the veracity of the adjustments.            These
unsupported adjustments resulted in changes to the accounts and statements as indicated in
Table 2.

                             Table 2. Unsupported Adjustments
                                       Increase or
           Account Name                (Decrease)                 Statement (FY 2012)
                                        ($ million)
  Outstanding Advances                            478   Balance Sheet
  Expended Appropriations                         418   Statement of Changes in Net Position
  Undelivered Orders, Prepaid                     420   Statement of Budgetary Resources
  Delivered Orders, Unpaid                        264   Statement of Budgetary Resources
  Fund Balance With Treasury                     (58)   Balance Sheet
  Unexpended Appropriations Used                (418)   Statement of Changes in Net Position
  Operating Expenses/Program Costs              (420)   Statement of Net Costs
  Delivered Orders, Paid                        (278)   Statement of Budgetary Resources
  Undelivered Orders, Unpaid                    (406)   Statement of Budgetary Resources




                                                                                               4
In our opinion, except for the effects of the unsupported adjustments on the 2012 financial
statements as shown in the table on the preceding page, the financial statements referred to
above present fairly, in all material respects, USAID’s assets, liabilities, and net position; net
costs; changes in net position; and budgetary resources as of September 30, 2012 and 2011,
and for the years then ended in conformity with accounting principles generally accepted in the
United States of America.

The Management’s Discussion and Analysis and Required Supplementary Information sections
are not required parts of the consolidated financial statements but represent supplementary
information required by OMB Circular A–136, “Financial Reporting Requirements.” We have
applied certain limited procedures to this information, primarily consisting of inquiries of
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we do not express an opinion on it.

In accordance with generally accepted Government Auditing Standards, we have also issued
reports, dated November 16, 2012, on our consideration of USAID’s internal control over
financial reporting and on our tests of USAID’s compliance with certain provisions of laws and
regulations. These reports are an integral part of an overall audit conducted in accordance with
Government Auditing Standards and should be read in conjunction with this report.

This report is intended solely for the information and use of those charged with governance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record, and its distribution is not
limited.




USAID Office of Inspector General
November 16, 2012




                                                                                                5
REPORT ON
INTERNAL CONTROL
We have audited the consolidated balance sheets of USAID as of September 30, 2012 and
2011. We have also audited the consolidated statements of net cost, consolidated statements
of changes in net position, and combined statements of budgetary resources for the fiscal years
ended September 30, 2012 and 2011, and have issued our report thereon dated November 16,
2012. We conducted the audits in accordance with auditing standards generally accepted in the
United States; generally accepted Government Auditing Standards issued by the Comptroller
General of the United States; and OMB Bulletin 07–04, “Audit Requirements for Federal
Financial Statements,” as amended.

In planning and performing our audits of USAID’s financial statements for the fiscal years ended
September 30, 2012 and 2011, we considered USAID’s internal control over financial reporting
by obtaining an understanding of USAID’s system of internal control, determining whether
internal controls had been placed in operation, assessing control risk, and testing controls to
determine which auditing procedures to use for expressing our opinion on the financial
statements. We limited our internal control testing to those controls necessary to achieve the
objectives described in OMB Bulletin 07–04, as amended. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982 (FMFIA), Public Law 97-225, such as those controls relevant to ensuring efficient
operations. The objective of our audit was not to provide an opinion on internal control.
Accordingly, we do not express an opinion on internal control.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and would not necessarily identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies. However, as discussed below, we identified
two material weaknesses and six significant deficiencies in USAID’s internal control.

A material weakness is a deficiency or a combination of deficiencies in internal control that
presents a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented or detected and corrected in a timely manner. We identified
two deficiencies in internal control that we consider material weaknesses, as defined above,
relating to USAID’s reconciliation of its Fund Balance With Treasury account with Treasury and
recording of adjustments to its general ledger.

A significant deficiency is a deficiency or a combination of deficiencies in internal control that is
less severe than a material weakness, yet is important enough to merit attention by those
charged with governance. We identified six significant deficiencies in internal control related to
USAID’s financial management processes. Specifically, USAID’s process to:

   Reconcile loans receivable is not effective and does not resolve differences in a timely
   manner.

   Review and deobligate unliquidated obligations is not effective.




                                                                                                   6
    Account for advances is not effective.

    Estimate and record accounts payable and accrued expenses is not effective.

    Record payroll deductions and calculate entitlement payments is not effective.

    Reconcile intragovernmental transactions remains a challenge.

The Management’s Discussion and Analysis and Required Supplementary Information sections
are not required parts of the consolidated financial statements but represent supplementary
information required by OMB Circular A–136, “Financial Reporting Requirements.” We have
applied certain limited procedures to this information, primarily consisting of inquiries of
management regarding the methods of measurement and presentation of this information.
However, we did not audit this information, and accordingly, we do not express an opinion on it.

We also noted other matters involving internal control over financial reporting that we will report
to USAID’s management in a separate letter dated November 16, 2012.

Material Weaknesses
USAID Recorded Unsupported Adjustments to Bring Its Fund Balance
With Treasury Account Into Agreement With the U.S. Treasury’s
Balance
USAID continues to have a large difference between the Fund Balance With Treasury (FBWT or
cash) account recorded in its general ledger (GL) in the financial accounting system (Phoenix)
and the balance reported by the Department of the Treasury (Treasury). At the beginning of
FY 2012, the balance in USAID’s FBWT account was $96 million less than the balance reported
by Treasury. Instead of investigating and resolving the difference, USAID made a management
decision to rely on the cash balance in the budget module,2 and adjust its FBWT account in the
GL to make it agree with the budget module. As a result, USAID recorded a series of entries in
its GL and moved funds from all affected appropriations to one appropriation at Treasury. The
net effect of these entries reduced its GL cash balance by approximately $58 million which
made the GL FBWT balance $114 million less than the balance at Treasury. As of the date of
this report, management does not know if the $114 million belongs to Treasury or to USAID and
anticipates that it will know by the end of the second quarter of FY 2013.

USAID justified these entries by claiming that thousands of standard voucher and journal
voucher entries that it had recorded in its GL since 2001 included many erroneous entries that
distorted its GL FBWT balance. Management claimed that the erroneous entries affected the
GL only and not the budget module and concluded that the balance in the budget module was
more accurate than the GL. However, USAID’s management was unable to provide satisfactory
evidence to support this contention despite several requests dating back to October 2011. In
addition, USAID was unable to produce any analysis that was conducted before the
adjustments were recorded, either to justify them or to demonstrate the verity of the balances in


2
  The budget module is a component in the Agency’s accounting system that automates the budget
execution process and validates all financial activity.


                                                                                                 7
the budget module. Despite all the adjustments that USAID recorded during the year, it was
compelled to record further adjustments of $35 million at the end of FY 2012 to ensure that its
FBWT account agreed with the balance reported on Treasury’s Form 2108, Year End Closing
Statement. In fact, the difference between the GL FBWT balance and Treasury’s balance at the
end of the year was approximately $119 million, but because USAID did not record $84 million
of disbursements that were recorded by Treasury, the difference appeared to be only
$35 million.

Fund Balance With Treasury Reconciliation Procedures, a Supplement to the Treasury
Financial Manual, Volume I, Part 2-5100, Section V, stipulates that federal agencies must
resolve all differences between the balances reported in their GL FBWT accounts and balances
reported by Treasury in the Government-wide Accounting System. In addition, Fund Balance
With Treasury Reconciliation Procedures specifically states that an agency may not arbitrarily
adjust its FBWT account and only after clearly establishing the causes of errors and properly
documenting those errors should an agency adjust the balance of its FBWT account.

Treasury requires each agency to reconcile its FBWT account on a regular and recurring basis
to assure the accuracy and integrity of its financial data. Failure to implement effective
reconciliation processes and perform timely reconciliations could increase the risks of fraud,
waste, and mismanagement of funds; affect the agency’s ability to effectively monitor the
execution of its budget; and hinder the agency’s ability to measure the full cost of its programs.
USAID has implemented an eCART3 system that expedites the reconciliation process and
facilitates the research and resolution of reconciling items. The Agency expects to have all
differences resolved by the end of FY 2013. Still we make the following recommendation.

    Recommendation 1. We recommend that the Chief Financial Officer verify that all
    differences between USAID and the Department of the Treasury are researched and
    resolved in a timely manner in accordance with Treasury financial manual reconciliation
    procedures.

USAID Made Adjustments to Various Accounts in Its General Ledger
That It Could Not Justify
Our audit revealed that USAID recorded several unsupported adjustments to various GL
accounts to address differences between its FBWT account and the balance recorded by the
Treasury, and between the advances account and the undelivered orders, prepaid account. As
a result of these adjustments, USAID was forced to adjust the balances of other budgetary and
proprietary accounts, including the undelivered orders, unpaid account and the delivered orders,
paid account. USAID recorded these adjustments without first researching and resolving the
differences in the account balances and maintaining an analysis of the adjustments to allow
correct interpretation of errors and corresponding adjustments.

These unsupported adjustments occurred because USAID did not ensure that its employees
followed established procedures for reconciling GL accounts: reviewing each transaction,
determining the validity of transaction errors, and maintaining documentation to show the cause


3
  eCART is a tool that performs a comprehensive reconciliation of the Agency’s cash disbursement with
Treasury’s Fund balance, tracking open reconciling items and providing an audit trail of corrective action
taken.


                                                                                                        8
of each error and the resulting adjustment. Additionally, the differences between the GL
account and subsidiary ledgers and other records occurred because USAID did not have
adequate internal controls to ensure that the GL updates were consistent with transactions
recorded in the subsidiary ledgers and that financial reports reflected accurate account
information. Specifically, we found that USAID recorded the following unsupported adjustments:

        Decreased FBWT by approximately $58 million (Table 3)
        Increased outstanding advances by approximately $478 million (Table 4)
        Increased undelivered orders, unpaid by approximately $348 million (Table 5).

Treasury Financial Manual Volume I, Part 2, Chapter 5100, states that an agency may not
arbitrarily adjust its FBWT account. It further states that only after clearly establishing the cause
of errors and properly documenting those errors should an agency adjust its FBWT account
balance. If an agency must make material adjustments, the agency must maintain supporting
documentation. This will allow correct interpretation of the error and its corresponding
adjustments. The Government Accountability Office’s, Standards for Internal Control in the
Federal Government (GAO/AIMD-00-21.3.1), states control activities occur at all levels and
functions of the entity. They include activities such as approvals, authorizations, verifications,
reconciliations, and maintenance of records that provide evidence of execution of these
activities as well as appropriate documentation. OMB Circular A-123, “Management’s
Responsibility for Internal Control”, December 21, 2004, states that documentation should be
appropriately detailed and organized, contain sufficient information to support management’s
assertion, and be readily available for examination.

Unsupported Fund Balance With Treasury Adjustments

We determined that USAID recorded a series of unsupported adjustments that reduced the
balance of its FBWT account by $58 million. USAID made a management decision that the
cash balance in the budget module was more accurate than the cash balance in the GL and
recorded a series of unsupported adjustments to eliminate the differences. The entries are
illustrated in Table 3. In an attempt to resolve the differences between its FBWT account and
the balance at Treasury, USAID moved funds from all the affected appropriations to one
appropriation at Treasury, causing the balance at Treasury to exceed the balance on USAID’s
GL by $114 million.

       Table 3. Unsupported Fund Balance With Treasury Account Adjustments
                                                    Increase /
       GL                                          (Decrease)
     Account            Account Name                ($Million)         Financial Statements
      1010       Fund Balance With Treasury                 (58)   Balance Sheet

       3107      Unexpended Appropriations –                 58    Statement of Changes in Net
                 Used                                              Position
                                                                   Statement of Budgetary
       4801      Undelivered Orders, Unpaid                  58    Resources
                                                                   Statement of Budgetary
       4902      Delivered Orders, Paid                    (58)    Resources
                                                                   Statement of Changes in Net
       5700      Expended Appropriations                   (58)    Position
       6100      Operating   Expense/Program                 58    Statement of Net Costs
                 Costs




                                                                                                   9
These adjustments do not include the $35 million adjustment that management made at the end
of FY 2012 to bring its FBWT account into agreement with the balance at Treasury.

For many years USAID has attempted to reconcile the differences between its GL FBWT
account and the balance reported by Treasury. During FY 2012, USAID took the position that
its budget module was more reliable than its GL; consequently, the Agency recorded several
unsupported adjustments to GL cash balances to make them agree with cash balances in the
budget module and to reflect the cash balances in the related accounts at Treasury.
Subsequently, USAID informed us that many of the adjustments were made to correct errors
created by previous adjustments to the GL but could not provide any support for this assertion.

Unsupported Adjustments To Advances

We determined that during FY 2012, USAID compared the outstanding balance of the advances
account recorded in its GL with the balances in the budget module and identified a difference of
$478 million. However, USAID did not conduct the required reconciliation of the balance in the
GL advances account with the balance in the advances account recorded in the budget module.
Instead, USAID recorded an unsupported adjustment of approximately $478 million to bring the
GL advances account into agreement with the advances account balances recorded in the
budget module. (Table 4).

                      Table 4. Unsupported Adjustments to Advances
                          Between the GL and the Budget Module
                                                 Increase /
       GL                                       (Decrease)
     Account          Account Name               ($ million)        Financial Statements
      1410      Advances                                  478   Balance Sheet
                                                                Statement of Changes in Net
      3107      Unexpended Appropriations              (476)    Position
                Undelivered Orders –                            Statement of Budgetary
      4802      Obligations - Advances, Paid           (420)    Resources
                Delivered Orders –                              Statement of Budgetary
      4902      Obligations, Paid                        420    Resources
                                                                Statement of Changes in Net
      5700      Expended Appropriations                  476    Position
                Operating Expenses/Program
      6100      Costs                                  (478)    Statement of Net Cost

Unsupported Obligation Adjustments

Finally, our audit revealed that for the remaining differences, USAID did not reconcile the
account balances but recorded additional unsupported adjustments to the obligation balances.
Further, USAID only compared the balances in the obligation accounts but did not identify
specific transactions that caused the errors in the balances. Using this comparison of account
balances, USAID determined that there was a difference of $348 million in cash between the
budget module and the GL that was available to cover unpaid obligations. This difference
occurred because the unsupported adjustments made to the FBWT and advances accounts
affected various budgetary accounts and necessitated adjustments to the undelivered orders,
unpaid account and the delivered orders, paid account. Therefore, USAID recorded the
following additional unsupported adjustment to its FY 2012 obligation balances in the GL
(Table 5).



                                                                                              10
                        Table 5. Unsupported Adjustments to Obligations
                             Between the GL and the Budget Module
                                                    Increase /
       GL                                          (Decrease)
     Account            Account Name                ($ million)       Financial Statements
                                                                   Statement of Budgetary
    4801        Undelivered Orders, Unpaid                  348    Resources
                                                                   Statement of Budgetary
    4901        Delivered Orders, Unpaid                   (264)   Resources
                                                                   Statement of Budgetary
    4902        Delivered Orders, Paid                      (84)   Resources

After all the adjustments were recorded in the GL, the balance of the FBWT account decreased
by $37 million, advances increased by $305 million, net position increased by $268 million, and
undelivered orders, unpaid increased by $46 million. Therefore we make the following
recommendation.

   Recommendation 2. We recommend that the Chief Financial Officer augment its
   general ledger reconciliation processes to ensure that (a) the postings in the general
   ledger are reconciled periodically with the postings in the subsidiary ledgers, (b) general
   ledger differences are researched and resolved in a timely manner, (c) errors are
   corrected in a timely manner to maintain accurate account balances in the general
   ledger, and (d) detailed documentation of analysis and reconciliations supporting
   adjustments are maintained and easily retrievable for examination.

Significant Deficiencies
USAID’s Process for Reconciling Loans Receivable Is Not Effective
and Does Not Resolve Differences in a Timely Manner (Repeat Finding)
A large unreconciled difference exists between USAID’s accounting system and the system
used by the company that services USAID’s loan portfolio. USAID contracted with PNC
Financial Services Group Inc. (PNC) to service its loan portfolio and to maintain accurate loan
balances. PNC processes USAID’s loan transactions in its Enterprise Loan System (ELS) and
generates a monthly report of loan transactions that is uploaded into USAID’s accounting
system (Phoenix) through an interface. This interface is necessary to transmit accounting
information to Phoenix for the loans that are recorded and maintained in ELS. As of
September 30, 2012, USAID’s unreconciled differences between amounts recorded in Phoenix
and amounts recorded in ELS totaled approximately $35 million net ($772 million absolute
value).

Even though USAID has made improvements in investigating and resolving these differences, a
large unreconciled difference between the two systems remains. This difference results from
unrecorded debt restructuring transactions that were not captured by the Phoenix accounting
system during the interface and from some loan transactions recorded in ELS that were not
designed to be included in the interface transmission process. According to USAID’s
management, these transactions are recorded with a supplemental journal entry following the
interface. As a result, USAID recorded an adjustment of approximately $35 million to bring the
loans receivable balance in Phoenix as of September 30, 2012, into agreement with ELS.



                                                                                                 11
Generally Accepted Accounting Principles require that the sum of the account balances in the
subsidiary ledger equal the total of each line item in the GL at the end of the accounting period.
Additionally, Statements of Federal Financial Accounting Standards, Technical Release No. 6,
“Preparing Estimates for Direct Loan and Loan Guarantee Subsidies under the Federal Credit
Reform Act”, requires that agencies maintain an audit trail from individual transactions in the
subsidiary ledger to the GL.

In last year’s audit,4 we recommended that USAID’s Office of the Chief Financial Officer (CFO)
(a) develop and implement a plan to complete its reconciliation of loan balances in the Phoenix
accounting system with balances maintained in PNC’s Enterprise Loan System and (b) ensure
that all Enterprise Loan System transactions transmitted to Phoenix via the interface are
properly accounted for and recorded in Phoenix. USAID implemented this plan in FY 2012, and
we will continue to monitor its progress in completing the reconciliation. Therefore, we are not
making a recommendation to USAID management on this matter.

USAID’s Process for Reviewing and Deobligating Unliquidated
Obligations Is Not Effective
USAID does not consistently review its unliquidated obligations (ULOs) to determine whether
those without activity for 3 years or more are still required or should be deobligated. Although
USAID and its missions review ULOs annually, neither the Agency nor its missions consistently
deobligate ULOs identified as excess or unneeded funds. When funds are deobligated, they
are made available in the Phoenix accounting system for reprogramming. During our audit, we
analyzed USAID’s ULOs and determined that, as of September 30, 2012, USAID had
approximately $53 million,5 in ULOs, including $45 million related to procurement activities, with
no disbursements for more than 3-years that might be available for deobligation. Of the $53
million, approximately $16 million in obligations were more than 10 years old. We also
determined that approximately $21 million, comprising of both procurement and non-
procurement activities, related to obligations that had no disbursements since they were
established (Table 6).
                          Table 6. Analysis of ULOs by Fiscal Years
                          Amount of Obligations     Amount of Unliquidated
    FY Established        With No Activity Since      Obligations With No       Total Unliquidated
                            Establishment ($)        Activity for 3-Years ($)     Obligations ($)
    2001 and Prior                      2,279,650                13,305,859             15,585,509
        2002                              146,620                 2,014,962              2,161,582
        2003                              183,233                 1,321,036              1,504,269
        2004                            1,051,695                 3,930,481              4,982,177
        2005                            1,542,819                 2,574,030              4,116,849
        2006                            1,380,031                 2,955,371              4,335,401
        2007                            3,027,433                 2,487,009              5,514,443
        2008                            4,166,758                 2,600,054              6,766,812
        2009                            7,650,593                   767,647              8,418,241
        Total                          21,428,832                31,956,449             53,385,281


4
  “Audit of USAID’s Financial Statements for Fiscal Years 2011 and 2010,” November 15, 2011, page. 8,
http://oig.usaid.gov/sites/default/files/audit-reports/0-000-12-001-c.pdf
5
  During the past five years, obligations incurred averaged approximately $12 billion annually.


                                                                                                     12
In addition, our audit determined that 10,210 obligations valued at approximately $604 million in
USAID’s Phoenix accounting system and its Global Acquisition and Assistance System
(GLAAS) lacked certain critical procurement information. When recording awards, contracting
officers and obligation managers were not including all relevant information in the acquisition
system that would facilitate timely deobligations. USAID addressed these deficiencies during
the audit. Additionally obligation managers did not consistently monitor the contracts and grants
assigned to them to determine whether the unliquidated amounts were still needed.

USAID’s Automated Directives System (ADS) Chapter 621, “Obligations,” states that obligation
managers must continuously monitor unexpended obligated balances and request the obligating
official to deobligate excess or unneeded funds.

As a result of not monitoring the obligations, USAID has increased the risk of losing program
and operating expense funds that may expire before they are deobligated. Because USAID is
in the process of awarding contracts to independent public accounting firms to conduct contract
closeout audits on procurement awards, we are not making a recommendation on this matter.
However, because USAID has approximately $21 million in ULOs with no disbursement activity
for more than 3 years, we make the following recommendation.

   Recommendation 3. We recommend that the Chief Financial Officer coordinate with the
   Office of Acquisition and Assistance and relevant Bureau Assistant Administrators to (a)
   initiate targeted reviews of awards that are more than 3 years old with unliquidated
   obligation balances and (b) verify that obligation managers conduct the periodic reviews
   required to initiate deobligation action on unliquidated obligations.

USAID’s Process for Accounting for Advances Is Not Effective (Repeat
Finding)

USAID’s process for accounting for advances continues to be problematic. Specifically, USAID:

   Continues to have advances outstanding longer than the 90 days allowed before liquidation.
   Has not investigated approximately $7.8 million in negative unliquidated advances.
   Does not have procedures for secondary reviews of advance reclassification.
   Recorded adjustments to its advances account that were not supported.

As of September 30, 2012, USAID had approximately $67 million in advances that were
outstanding for more than 90 days (Table 7).

                  Table 7. Advances Outstanding for More Than 90 Days
                                                         Number         Amount
         Office                   Category              Outstanding  ($ thousands)
     USAID/W         Intra-governmental                     67              24,669
                     Grantees                               115              4,518
                     Public International Organizations      7               3,575
     USAID/Missions Intra-governmental                      39                  82
                     Grantees                              1,220            33,995
                                                  Total    1,448            66,839

These advances were outstanding because USAID and its missions allowed grantees to utilize
the “three month rolling advance” process which allowed them to take an additional 30 days to


                                                                                              13
report expenses incurred in the prior quarter. USAID then took another 30 days to review and
liquidate the advances. As a result, USAID did not review outstanding advances until they were
150 days old. USAID’s CFO is working to reduce the $34 million in outstanding advances at its
missions and has taken a number of corrective actions, such as upgrading the Phoenix advance
aging reports, issuing new guidance to its missions, and updating and clarifying existing
guidance on advances. USAID/Washington is responsible for the remaining $33 million in
outstanding advances, of which $8 million (24 percent) is attributable to advances made to
public international organizations and grantees that consistently delay the liquidation of
advances made to them. USAID/Washington has implemented new procedures and has made
some progress in reducing the number of outstanding advances.

ADS 636.3, “Program Funded Advances,” states that missions and Washington offices are
required to ensure that outstanding advances are periodically reviewed so that funds advanced
do not exceed immediate disbursement needs. However, it does not stipulate when an advance
should be reported to the contracting or agreement officer to make a debt determination.

Additionally, our audit revealed that USAID has not investigated approximately $7.8 million
worth of negative (overdrawn) unliquidated advances to determine whether they should be
recovered. This amount was reported in the synchronization report of the Department of Health
and Human Services (DHHS) Payment Management System (PMS), which contains all funds
advanced to grantees on behalf of USAID. As of September 30, 2012, 50 advance obligations
recorded in the DHHS PMS synchronization report, valued at approximately $7.8 million, remained
unreconciled. USAID did not investigate and obtain information about these amounts to initiate
recovery proceedings. USAID implemented new procedures to prevent this problem from
recurring, but the transactions causing the overstatement from the prior year remain unresolved.
As a result, outstanding advances on the balance sheet were overstated by $7.8 million.

Furthermore, we found that USAID’s Financial Management Division used an inadequate
process to accrue and account for DHHS PMS advances. Our review of third quarter financial
statements determined that the process lacks a secondary review to ensure accruals are
accurate before they are recorded in the GL. We recalculated the accrual for advances and
determined that it was overstated by approximately $2.2 million. USAID recorded an adjustment
of approximately $2.2 million to recognize the accrual in its year-end financial statements.

The Government Accountability Office’s Standards for Internal Control in the Federal
Government (GAO/AIMD-00-21.3.1) states that control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, and maintenance of related records which provide evidence of the
execution of these activities as well as appropriate documentation.

   Recommendation 4. We recommend that the Chief Financial Officer (a) continue to
   upgrade controls at missions, (b) update Automated Directives System 636 to include
   the desktop procedures that were implemented by the Cash Management and Payment
   Division, (c) clarify when an outstanding advance should be reported to the contracting
   or agreement officer for debt determination, (d) research and resolve all outstanding
   amounts that remain in the Department of Health and Human Services synchronization
   report from prior years, and (e) implement a review and approval process to reclassify
   expenses as advances for amounts that were reported by the Department of Health and
   Human Services Payment Management System.




                                                                                              14
USAID’s Process to Calculate and Record Accounts Payable and
Accrued Expenses Needs Improvement
USAID’s methodology for estimating and recording accounts payable and accrued expenses
using contracting officer representative (COR) reviews of the information contained in the
Accrual Reporting System,6 needs improvement. The system generates estimated accrual
amounts, which CORs must modify and approve before those amounts are recorded in the
general ledger. Our audit found CORs did not consistently modify the accrued amounts
generated by the system to correspond with the CORs generated accrual worksheet, before
recording the amounts in the general ledger. From a sample of 45 estimated accruals reviewed
judgmentally selected, we found that 4 (8.9 percent) were incorrectly recorded in the general
ledger, resulting in an overstatement of approximately $88.2 million that was not discovered by
the responsible CORs. Therefore, we proposed an adjustment of approximately $204 million to
reflect more accurately USAID’s accounts payable and accrued expenses recorded in the
general ledger.

ADS 631.3.4, “Accrued Expenditures,” states that the obligation manager or COR must (1)
review system-generated accrual amounts and/or allocations to determine whether the amount
can be validated or needs to be modified, (2) compare the amount developed based on actual
conditions and first-hand knowledge of the project or activity with system-generated accrual
amounts, and (3) complete the accrual process in accordance with the established time
schedule and deadlines. If the amounts are approximately the same value, the obligation
manager or the COR must validate the accrual amount as indicated in the Accruals Query and if
there is a significant difference, modify the accrual amount in the Accruals Query as
appropriate. Because CORs do not consistently modify the accrued amounts before they were
recorded in the general ledger and reported in the financial statements, we make the following
recommendation.

    Recommendation 5. We recommend that the Chief Financial Officer coordinate with
    the Office of Acquisition and Assistance to augment procedures to verify that contracting
    officer representatives review, validate, and modify as necessary the quarterly accounts
    payable and accrued expenses generated by the Accrual Reporting System before that
    information is recorded in the general ledger.

USAID’s Process to Record Payroll Deductions and Entitlement
Payments Is Not Effective
During our audit of the payroll cycle, we observed that USAID did not maintain accurate records
to support deductions from employees’ salaries and that some employees’ salaries exceeded
the cap allowed by federal guidance for bi-weekly and annual salary payments. Specifically, we
found that USAID could not provide documentation to support the deductions noted on
employees’ Earnings and Leave Statements. Additionally, we found that deductions recorded
on some employees’ statements did not correspond to the deductions authorized by the
employees and maintained in their electronic personnel folders (eOPF). During our review of
records for 45 sampled employees, we found that official documents for 23 employees were


6
  The Accrual Reporting System gathers obligation and contract information from USAID’s Financial
Management and Procurement Systems, and uses the data to calculate estimated quarterly accrued
expenses against individual USAID contracts, grants, or obligation items.


                                                                                                15
missing. These documents authorize salary deductions and are used to calculate benefits,
contributions, and withholdings. As a result, $4,748 in employee withholdings lacked the
required supporting documentation. We also found that benefits, contributions, and withholdings
were incorrectly calculated for six employees resulting in a ($1,283) error (Table 8). This
occurred because USAID Human Resources is behind in updating employees’ eOPF

           Table 8. Impact of Missing Documents and Incorrect Calculations on
                    Employee Benefits, Contributions and Withholdings
                                         Missing      Amount     Incorrect    Amount
             Deduction Type             Document        (S)     Calculation     (S)
   Thrift Savings Plan (TSP) TSP-1           4           1,231       1           (223)
   Federal Employees Health Benefits
   (FEHB)                                    4             369       3              20
   Federal Employees Group Life
   Insurance (FEGLI)                         2              12       -               -
   FEHB + FEGLI                              4             608       -               -
   FEHB + TSP                                5           2,272       1         (1,381)
   FEGLI + TSP                               2           (605)       -               -
   FEHB + FEGLI + TSP                        2             861       1             301
                                 Total      23           4,748       6         (1,283)

We found that amounts paid to 64 employees serving in Critical Priority Posts exceeded the
$230,700 salary cap allowed by federal guidance for bi-weekly and annual salary payments by
approximately $1.3 million. Ten of the 64 received waivers that allowed them to exceed the cap.
These excess payments occurred because the National Finance Center which processes the
payroll for USAID, does not have the required edits to suspend salary payments to employees
who exceed the established cap.

OMB Circular A-123, “Management’s Responsibility for Internal Controls”, states that the
reliability of financial reporting requires management to provide the assertion that
documentation exists for all transactions and other significant events and is readily available for
examination.

Without monitoring, analysis, oversight, and reconciliations, discrepancies may exist but go
undetected and uncorrected, thereby causing the financial information to be misstated. Effective
management oversight greatly increases USAID’s ability to proactively identify and resolve
issues that could result in misstatements in financial accounting and reporting records.
Therefore, we make the following recommendation.

   Recommendation 6. We recommend that the Chief Financial Officer in coordination
   with the Office of Human Resources ensure: (a) that personnel files are updated to
   reflect all personnel actions and (b) that a reconciliation with National Finance Center
   records is performed to ensure that bi-weekly and annual salary pay caps are not
   exceeded.




                                                                                                16
Intragovernmental Transactions Remain Unreconciled (Repeat Finding)
USAID still struggles to reconcile intragovernmental transactions. As of September 30, 2012,
Treasury reported a net difference of $3.6 billion in intragovernmental transactions between
USAID and other federal agencies. These differences, which Treasury reports each quarter in
the Material Differences/Status of Disposition Certification Report,7 represent differences
identified by Treasury between USAID’s records and those of its federal trading partners that
exceed a $250 million assurance threshold established by Treasury. Of this amount, USAID
was required to reconcile and confirm $736 million in accordance with OMB Circular A–136,
“Financial Reporting Requirements,” and Treasury’s Federal Intragovernmental Transactions
Accounting Policies Guide, Section 17.1. In the fourth quarter report on material differences,
Treasury reported one differences totaling $278 million greater than the $250 million threshold.
Although USAID has increased its efforts to resolve unreconciled amounts, significant
differences still exist, including the $278 million that should have been reconciled with one
federal agencies. These differences occurred because USAID’s trading partners recorded the
transactions in different accounting periods or used different accounting methodologies to
classify and report the transactions.

USAID continually researches intragovernmental activity to improve USAID’s reconciliation
process and eliminate the differences. Although some timing differences may ultimately be
resolved, differences caused by accounting errors or different accounting methodologies require
a special effort by USAID and its trading partners for timely resolution. The Federal
Intragovernmental Transactions Accounting Policies Guide suggests that agencies work
together to estimate accruals and to record corresponding entries to ensure that they agree and
that long-term accounting policy differences can be eliminated.

Although approximately $2.8 billion of the $3.6 billion in net differences reported between
USAID and the Treasury general fund does not have to be reconciled, Treasury suggests that
federal agencies confirm that these differences represent general fund activities. USAID is
making an effort to confirm the general fund activity and plans to continue its efforts to
collaborate with Treasury to research and reconcile these differences.

We reported a similar finding in previous audits,8 and recognize that this process requires
continuing coordination with other federal agencies. Therefore, we are not making a new
recommendation, but we will continue to monitor USAID’s progress in reducing
intragovernmental differences in future audits.

USAID management’s written response to the material weakness and significant deficiencies
identified in our audit has not been subjected to the audit procedures applied in the audit of the
financial statements. Accordingly, we express no opinion on it.

This report is intended solely for the information and use of those charged with governance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and


7
   The Material Differences/Status of Disposition Certification Report allows agencies to identify
differences with trading partners by reciprocal categories that are greater than or equal to a respective
reconciliation assurance level.
8
  “Audit of USAID’s Financial Statements for Fiscal Years 2011 and 2010,” November 15, 2011, page
9,http://www.usaid.gov/oig/public/fy12rpts/0-000-12-001-c.pdf.


                                                                                                      17
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record, and its distribution is not
limited.




USAID Office of Inspector General
November 16, 2012




                                                                                              18
REPORT ON COMPLIANCE
WITH LAWS AND
REGULATIONS
We have audited the consolidated balance sheets of USAID as of September 30, 2012 and
2011. We have also audited the consolidated statements of net cost, consolidated statements
of changes in net position, and combined statements of budgetary resources for the fiscal years
ended September 30, 2012 and 2011, and have issued our report thereon. We conducted the
audits in accordance with auditing standards generally accepted in the United States; generally
accepted government auditing standards issued by the Comptroller General of the United
States; and OMB Bulletin 07–04, “Audit Requirements for Federal Financial Statements,” as
amended.

The management of USAID is responsible for complying with laws and regulations applicable to
USAID. As part of obtaining reasonable assurance about whether USAID’s financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions
of laws and regulations, noncompliance with which could have a direct and material effect on
the determination of financial statement amounts and with certain other laws and regulations
specified in OMB Bulletin 07–04, including the requirements referred to in the Federal Financial
Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAID.

Our tests did not disclose instances of noncompliance considered to be reportable under
Government Auditing Standards. Our objective was not to provide an opinion on overall
compliance with laws and regulations, and accordingly, we do not express such an opinion.

OMB Circular A–123
OMB Circular A–123, “Management’s Responsibility for Internal Control,” implements the
requirements of the Federal Managers’ Financial Integrity Act of 1982 (FMFIA). Appendix A of
OMB Circular A–123 contains a process that management should implement to assess and
improve internal controls over financial reporting. The assessment process should provide
management with the information needed to support a separate assertion on the effectiveness
of the internal controls over financial reporting, as a subset of the overall FMFIA report.

In FY 2012, USAID monitored key business processes and followed up on recommendations
made in prior years. In its Management Assurance Report to the President and Congress,
USAID identified one instance of nonconformance related to a lack of an effective risk
management program, and reported two material weaknesses related to:

   Fund Balance With Treasury
   Implementation of information security policies and procedures




                                                                                             19
Management also identified the following significant deficiencies related to:

   Monitoring activities in high threat environments
   Reconciliation of loans receivable
   Unliquidated obligations
   Salary and entitlement payments
   FMFIA certification process.

Federal Financial Management Improvement Act of 1996
Under FFMIA, we are required to report on whether USAID’s financial management systems
substantially comply with federal financial management systems requirements, applicable
federal accounting standards, and the U.S. Government Standard General Ledger (USSGL) at
the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) and did not identify any instance of noncompliance with those requirements.

However, we reported one significant deficiency in USAID’s annual FISMA report dated
November 14, 2012, which we reported as an instance of substantial noncompliance with
FFMIA as required by OMB Bulletin 07-04, “Audit Requirements for Federal Financial
Statements.” Specifically, we reported (1) that USAID has not established an effective risk
management program to ensure that policies and procedures are assessed and working as
intended and (2) that USAID’s decentralized management of information technology and
information security does not allow the Agency to implement a process to effectively assess,
respond to, and monitor information security risk across the organization. The Office of the Chief
Information Officer is responsible for the financial management system that was found not to
comply with the requirements of the subsection. USAID is in the process of developing a
corrective action plan to remediate the areas of noncompliance and expects to complete the
plan by December 31, 2012 and implement it by March 31, 2013.

In our report on internal control, we identified the following areas for improvement in several
financial system processes, not affecting substantial compliance:

   Reconciliation of Fund Balance With the U.S. Treasury
   Reconciliation of Loans Receivable
   Accounting for Unliquidated Obligations
   Accounting for Advances
   Accounting for Accounts Payable
   Accounting for Payroll
   Reconciliation of Intragovernmental Transactions

This report is intended solely for the information and use of those charged with governance at
USAID (the USAID Administrator, Deputy Administrator, Assistant Administrator for
Management, and Chief Financial Officer) and others within USAID, as well as for OMB and
Congress, and is not intended to be and should not be used by anyone other than these
specified parties. However, this report is a matter of public record, and its distribution is not
limited.


USAID Office of Inspector General
November 16, 2012


                                                                                               20
EVALUATION OF MANAGEMENT
COMMENTS
We have received USAID’s management comments on the findings and recommendations
included in our draft report. The following is a summary of USAID’s management comments
and our evaluation of them.

USAID management accepted Recommendation 1 and indicated that in FY 2013 the CFO
would focus on researching and resolving the $114 million difference and all outstanding
differences more than a year old in the Web-based Cash Reconciliation System (eCART). The
target completion date is March 29, 2013. We acknowledge the Agency’s management
decision and will review USAID’s implementation of this recommendation during our FY 2013
GMRA audit.

USAID management accepted Recommendation 2 and the finding that staff recorded
adjustments without first researching and resolving the differences in the account balances at
the level of detail provided by the cited guidance. Management noted that given the large
number of accounts, the Agency chose to correct the general ledger based on summaries of the
source transactions. Management stated that support for the changes at Treasury and in the
general ledger is provided by the millions of underlying source transactions in the subsidiary
accounting journals; officials said that in the coming months they could provide additional
support for these adjustments. The target completion date is June 30, 2013. We acknowledge
the Agency’s management decision and will review USAID’s progress on implementing this
recommendation during our FY 2013 GMRA audit.

USAID management accepted Recommendation 3, indicating that the Agency would continue to
identify and reduce contracts and obligations currently in closeout. Although it will employ the
services of an independent accounting firm to assist in the review process, management did not
agree that its review process is ineffective. The target completion date is September 30, 2013.
We acknowledge the Agency’s management decision and will review USAID’s progress on
implementing this recommendation during our FY 2013 GMRA audit.

USAID management accepted Recommendation 4 and indicated the CFO would continue to
strengthen and improve business processes to reduce the Agency’s outstanding advances.
According to management, USAID will take the following actions:

(a)   Continue to upgrade controls at missions.
(b)   Revise ADS 636, “Program Advances,” to include Internal Mandatory References related
      to procedures that enhance the liquidation process for both Washington and the missions.
(c)   Revise ADS 636, “Program Advances,” to clarify when an outstanding advance should be
      reported to the contracting or agreement officer for debt determination, and cross-
      reference ADS 636 and 625.
(d)   Resolve items totaling $2.9 million remaining (after USAID resolved a $4.9 million item)
      related to nonpooled advances.




                                                                                             21
(e)   Strengthen the review and approval process for accruing advances issued by the
      Department of Health and Human Services Payment Management System before the
      amounts are recorded in the general ledger.

The target completion date is September 30, 2013, for actions (a)-(c) and March 31, 2013, for
actions (d) and (e).

We acknowledge the Agency’s management decision and will review USAID’s implementation
of this recommendation during our FY 2013 GMRA audit.

USAID management accepted Recommendation 5, noting that the CFO would coordinate with
the Office of Acquisition and Assistance to issue procedural reminders to ensure the appropriate
review of information generated by the Phoenix Accrual Query. The target completion date is
June 30, 2013. We acknowledge the Agency’s management decision and will review USAID’s
implementation of this recommendation during our FY 2012 GMRA audit.

USAID management accepted Recommendation 6 and indicated that the CFO would coordinate
with the Office of Human Resources to (a) ensure that personnel files are updated by
eliminating the backlog of personnel actions and (b) work with the National Finance Center to
implement a system edit to assist in preventing annual salary payments above the aggregate
pay cap. The target completion date is September 30, 2015. We acknowledge the Agency’s
management decision and will review USAID’s implementation of this recommendation during
our FY 2013 GMRA audit.

Although we did not include a recommendation for the intragovernmental transaction
reconciliation finding in our report, USAID indicated that management plans to continue to
coordinate with other federal agencies to resolve the Intragovernmental differences in a timely
manner. The target completion date is September 30, 2015. We acknowledge the
management decision and will review USAID’s progress on its implementation during our
FY 2013 GMRA audit.




                                                                                             22
                                                                                         Appendix I
                                                                                        Page 1 of 2


SCOPE AND METHODOLOGY
USAID management is responsible for (1) preparing the financial statements in accordance with
generally accepted accounting principles; (2) establishing, maintaining, and assessing internal
control to provide reasonable assurance that the broad control objectives of FMFIA are met; (3)
ensuring that USAID’s financial management systems substantially comply with the
requirements of FFMIA; and (4) complying with other applicable laws and regulations.

The Office of Inspector General (OIG) is responsible for obtaining reasonable assurance about
whether the financial statements are presented fairly, in all material respects, in conformity with
accounting principles generally accepted in the United States of America. OIG is also
responsible for (1) obtaining a sufficient understanding of internal control over financial reporting
and compliance to plan the audit, (2) testing whether USAID’s financial management systems
substantially comply with FFMIA requirements, (3) testing compliance with selected provisions
of laws and regulations that have a direct and material effect on the financial statements and
laws for which Office of Management and Budget’s (OMB) audit guidance requires testing, and
(4) performing limited procedures with respect to certain other information appearing in the
Agency Financial Report.

To fulfill these responsibilities, OIG:

    Examined, on a test basis, evidence supporting the amounts and disclosures in the financial
    statements.

    Assessed the accounting principles used and significant estimates made by management.

    Evaluated the overall presentation of the financial statements.

    Obtained an understanding of internal control related to financial reporting (including
    safeguarding assets) and compliance with laws and regulations, (including execution of
    transactions in accordance with budget authority).

    Tested relevant internal controls over financial reporting and compliance, and evaluated the
    design and operating effectiveness of internal controls.

    Considered the process for evaluating and reporting on internal control and financial
    management systems under FMFIA.

    Tested USAID’s compliance with FFMIA requirements.

We also tested USAID’s compliance with selected provisions of the following laws and
regulations:

    Anti-Deficiency Act, July 12, 1870; codified at 31 U.S.C. 1341, 1342, 1349 to 1351, 1511 to
    1519.

    Improper Payments Information Act of 2002, Public Law 107-300




                                                                                                  23
                                                                                        Appendix I
                                                                                       Page 2 of 2

   Prompt Payment Act, Public Law 97-177

   Debt Collection Improvement Act of 1996, Public Law 104-134

   Federal Credit Reform Act of 1990, Public Law 93-344

   OMB Circular A–136

   OMB Circular A–123

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may occur and may not be detected. We also caution that
projecting our evaluation to future periods is subject to the risk that controls may become
inadequate because of changes in conditions, or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We limited our
tests of compliance to those laws and regulations required by OMB audit guidance that we
deemed applicable to the financial statements for the fiscal years ended September 30, 2012,
and 2011. We caution that noncompliance may occur and not be detected by these tests, and
that such testing may not be sufficient for other purposes.

In forming our opinion, we considered potential aggregate errors exceeding $337 million for any
individual statement to be material to the presentation of the overall financial statements.

Federal Financial Management Improvement Act of 1996 (FFMIA)
We assessed whether USAID was substantially compliant with Section 803(a) of the FFMIA,
which requires agencies to implement and maintain financial management systems that
substantially comply with (1) federal financial management systems requirements, (2) applicable
federal accounting standards, and (3) the USSGL at the transaction level. To perform our
review, we conducted assessments of USAID’s Phoenix financial management systems
updates, its posting model’s effectiveness, and its budget module postings to the general ledger
to determine whether the systems substantially complied with selected mandatory requirements
contained in Acquisition/Financial System Interface Requirements issued by the Financial
Systems Integration Office, formerly known as the Joint Financial Management Improvement
Program, in June 2002. We evaluated USAID’s financial transactions that were recorded in
Phoenix to determine whether they were compatible with federal accounting standards and the
USSGL at the transaction level, and we did not observe any exceptions. However, we noted
that other auditors reported a significant deficiency in the Agency’s annual FISMA report, and
therefore, we concluded that this deficiency represented a lack of substantial compliance with
FFMIA.




                                                                                                 24
                                                                                     Appendix II
                                                                                     Page 1 of 5


MANAGEMENT COMMENTS


                                                                          November 15, 2012

MEMORANDUM

TO:           AIG/A, Tim Cox

FROM:         M/CFO, David D. Ostermeyer /s/

SUBJECT:      Management Response to Draft Independent Auditor’s Report on USAID’s
              Financial Statements for Fiscal Years 2012 and 2011
              (Report No. 0-000-13-001-C)

Thank you for your draft report on the Audit of USAID’s Financial Statements for Fiscal Years
2012 and 2011 and for the information provided by your staff throughout this process. We
understand the basis for the issuance of a qualified opinion on USAID’s principal financial
statements for FY 2012 and unqualified opinion on its FY 2011 financial statements, by the
USAID Office of the Inspector General.

The Agency will continue work to improve its financial systems and processes to receive an
unqualified opinion on future statements. Our comments and management decisions regarding
the findings and proposed audit recommendations follow.

Material Weakness: USAID Recorded Unsupported Adjustments to Bring Its Fund
Balance With Treasury Account Into Agreement With the U.S. Treasury’s Balance

Recommendation No 1:        We recommend that the Chief Financial Officer verify that all
differences between USAID and the Department of the Treasury are researched and resolved in
a timely manner in accordance with Treasury financial manual reconciliation procedures.

Management Decision: The Office of the Chief Financial Officer accepts the recommendation.

In FY 2013, we will focus our attention to research and resolve the $114 million difference and
all web-based Cash Reconciliation System (eCART) outstanding differences over one year old.

USAID is proud that it has effectively addressed the inconsistencies between the Department of
the Treasury (Treasury) cash balances and the General Ledger (GL) cash balances. We have
corrected the inconsistencies between our GL and our subsidiary accounting journal except for
issues related to advance refunds. The support for our changes at Treasury and in the GL is
provided by the millions of underlying source transactions in our subsidiary accounting journals.


                                                                                              25
                                                                                       Appendix II
                                                                                       Page 2 of 5

We acknowledge that the advance inconsistency has caused problems with our GL and
recognize that our Inspector General was not satisfied with the explanations provided to justify
the adjustments.

During FY 2012, USAID successfully eliminated virtually all of the differences between the Fund
Balance with Treasury (FBWT or cash) account recorded in the GL of its financial accounting
system (Phoenix) and the Fund Balance reported by Treasury. USAID adjusted its Treasury
cash balances to its GL cash balances plus outstanding cash reconciling items in all
appropriations except one. USAID consolidated all Treasury/GL cash differences into a single
appropriation at Treasury. In that appropriation, Treasury cash was $114 million more than GL
Cash plus outstanding items. The $114 million difference is partially caused by GL issues and
partially caused by prior year cash reconciliation issues.

We implemented processes in 2012 to enable us to avoid future cash reconciliation problems.
A process tool implemented in May 2012 is the web-based Cash Reconciliation System
(eCART). We appreciate the Inspector General’s acknowledgement of eCART. This tool
enables missions and headquarters to monitor all outstanding cash reconciliation items for
USAID’s approximately 100 Agency Location Codes in a timely manner. We have also
improved our reconciliation process for payments made by our third party payment service
providers related to USAID grants and payroll.

Target completion date: March 29, 2013

Material Weakness: USAID Made Adjustments to Various Accounts in Its General Ledger
That it Could Not Justify

Recommendation: No. 2: We recommend that the Chief Financial Officer augments its general
ledger reconciliation processes to ensure that (a) the postings in the general ledger are
reconciled periodically with the postings in the subsidiary ledgers, (b) general ledger differences
are researched and resolved in a timely manner, (c) errors are corrected in a timely manner to
maintain accurate account balances in the general ledger, and (d) detailed documentation of
analysis and reconciliations supporting adjustments are maintained and easily retrievable for
examination.

Management Decision: The Office of the Chief Financial Officer accepts the recommendation.

We accept the finding that adjustments were recorded without first researching and resolving
the differences in the account balances at the level of detail provided by the cited guidance.
Given the large number of accounts, we chose to correct the GL based on summaries of the
source transactions. We note with respect to part (d) that we already maintain the detailed
documentation described in the finding but we will reassess its accessibility.

The primary support for our changes at Treasury and in the GL is provided by the millions of
underlying source transactions in our subsidiary accounting journals. We believe that in the
coming months, we can provide additional information to further support these adjustments.

We chose to take these measures to eliminate the inconsistencies because we were
determined to solve a material weakness first identified in our FY 2008 Annual Financial
Reports. Our approach was to calculate what the cash balances should be based on the last 12
years’ worth of source transactions in the subsidiary accounting journals that support our
Budget Module. We then corrected the GL cash totals to make them consistent with the cash


                                                                                                26
                                                                                     Appendix II
                                                                                     Page 3 of 5

totals in the subsidiary accounting journals. We used the same source transactions to correct
the budgetary status GL accounts so that they would meet other tie point tests as prescribed by
Treasury. Finally, we corrected the cash balances for our appropriations at Treasury and made
them consistent with both the GL and the source transactions in our subsidiary journals.

In making our decisions, we were guided by the following principles:

SFFAS 1, Paragraph 110:
A fund balance is created by budget authority. An appropriation is the major form of budget
authority that creates a fund balance with Treasury for an entity. Thus, the relationship between
fund balance with Treasury and budget authority cannot be ignored.

Fund Balance with Treasury Reconciliation Procedures, A Supplement to the TFM
Also, the accounting system should be capable of producing subsidiary reports that provide a
detailed history of receipt and disbursement activity recorded during the month, by fund. The
subsidiary report balances should agree with the G/L.

As stated in the Inspector General’s report, we did not follow established procedures for
reconciling general ledger accounts that require reviewing each transaction, determining the
validity of transaction errors, and maintaining documentation to show the cause of each error
and their resulting adjustments. It was not feasible to correct our Subsidiary accounting
journal/GL cash balance inconsistencies by individually identifying and correcting errors since
the errors were part of thousands of transactions occurring over more than a decade. We did,
however, identify and correct most of the causes that created these inconsistencies to meet the
principles of the Treasury guidance.

Target completion date: June 30, 2013

Significant Deficiency: USAID’s Process for Reconciling Loans Receivable Is Not
Effective and Does Not Resolve Differences in a Timely Manner (Repeat Finding)

Based on recommendations for this finding made in last year’s audit, USAID implemented a
plan to address the recommendation that the Office of the Chief Financial Officer (CFO)
(a) develop and implement a plan to complete its reconciliation of loan balances in the Phoenix
accounting system with balances maintained in PNC’s Enterprise Loan System and (b) ensure
that all Enterprise Loan System transactions transmitted to Phoenix via the interface are
properly accounted for and recorded in Phoenix.

As noted by the Inspector General, USAID implemented this plan in FY 2012. Our progress in
reconciling loan restructurings was significant in FY 2012 and we expect to complete our work in
FY 2013 to fully address this finding. We will provide information to the IG so they may monitor
our progress in completing the reconciliation.

Target completion date: June 30, 2013

Significant Deficiency: USAID’s Process for Reviewing and Deobligating Unliquidated
Obligations Is Not Effective (Repeat Finding)

Recommendation No. 3: We recommend that the Chief Financial Officer coordinate with the
Office of Acquisition and Assistance and relevant Bureau Assistant Administrators to (a) initiate
targeted reviews of awards that are more than 3 years old with unliquidated obligation balances


                                                                                              27
                                                                                     Appendix II
                                                                                     Page 4 of 5

and (b) ensure that obligation managers conduct the periodic reviews required to initiate
deobligation action on unliquidated obligations.

Management Decision: The Office of the Chief Financial Officer accepts the recommendation.

USAID will continue to identify and reduce the current contract and obligation closeout, and
employ the services of an independent accounting firm to assist in the review and process but
does not agree that our review process is ineffective.

Based on prior audits, USAID management acknowledged that a significant cause of
unliquidated obligation balances was caused by the backlog of contract closeouts, a required
step in the Federal procurement process, and made significant progress in addressing this
issue.

Target completion date: September 30, 2013

Significant Deficiency: USAID’s Process for Accounting for Advances Is Not Effective
(Repeat Finding)

Recommendation No. 4: We recommend that the Chief Financial Officer (a) continue to
upgrade controls at missions, (b) update Automated Directives System 636 to include the
desktop procedures that were implemented by Cash Management and Payment Division, (c)
clarify when an outstanding advance should be reported to the contracting or agreement officer
for debt determination, (d) research and resolve all outstanding amounts that remain in the
Department of Health and Human Services synchronization report from prior years, and (e)
implement a review and approval process to accurately reclassify expenses as advances for
amounts that were reported by the Department of Health and Human Services Payment
Management System.

Management Decision: The Office of the Chief Financial Officer accepts the recommendation.

We will continue to strengthen and improve business processes to reduce the Agency’s
outstanding advances to address this finding. Each recommendation component will be
addressed by the following actions: (a) continue to upgrade controls at missions by; (b) revising
ADS 636 Program Advances to include Internal Mandatory References related to procedures
which enhance the liquidation process for both Washington and Missions; (c) revising ADS 636
Program Advances to clarify when an outstanding advance should be reported to the
contracting or agreement officer for debt determination and cross reference ADS 636 and 625;
(d) USAID resolved a $4.9 million item related to non-pooled advances and will resolve the
remaining items totaling $2.9 million; and (e) strengthen the review and approval process for
reclassifying expenses as advances for amounts reported by the Department of Health and
Human Services Payment Management System.

Target completion dates: September 30, 2013 for (a) – (c); March 31, 2013 for (d) and (e).

Significant Deficiency: USAID’s Process to Calculate and Record Accounts Payable and
Accrued Expenses Needs Improvement

Recommendation No. 5: We recommend that the Chief Financial Officer coordinate with the
Office of Acquisition and Assistance to implement procedures to verify that contracting officer
representatives review, validate, and modify as necessary the quarterly accounts payable and


                                                                                              28
                                                                                   Appendix II
                                                                                   Page 5 of 5

 accrued expenses generated by the Accrual Reporting System before that information is
recorded in the general ledger.

Management Decision: The Office of the Chief Financial Officer accepts this recommendation
and will coordinate with the Office of Acquisition and Assistance to issue procedural reminders
to assure the appropriate review of information generated by the Phoenix Accruals Query.

Target completion date: June 30, 2013

USAID’s Process to Record Payroll Deductions and Entitlement Payment Is Not Effective

Recommendation No. 6: We recommend that the Chief Financial Officer in coordination with
the Office of Human Resources (a) ensure that personnel files are updated to reflect all
personnel actions and (b) a reconciliation with National Finance Center records are performed
to ensure that bi-weekly and annual salary pay caps are not exceeded.

Management Decision: The Office of the Chief Financial Officer accepts this recommendation
and will coordinate with the Office of Human Resources to: (a) ensure that personnel files are
updated by eliminating the backlog of personnel actions; and (b) work with the National Finance
Center to implement a system edit to assist in preventing annual salary payments above the
aggregate pay cap.

Target completion date: June 30, 2013

Intragovernmental Transactions Remain Unreconciled (Repeat Finding)

USAID will continue to coordinate with other federal agencies to resolve the Intragovernmental
differences in a timely manner.

Target completion date: September 30, 2015

In closing, I would like to confirm USAID’s commitment to providing necessary information so
the Office of the Inspector General may express an unqualified opinion on our future financial
statements. We intend to ensure that the necessary steps are taken to continue to
institutionalize strong financial management performance throughout the Agency. We will
continue the improvements made in the last few years as we work diligently to develop and
implement long-term solutions to address the findings and recommendations cited in your
report.




                                                                                            29
                                                                                     Appendix III
                                                                                     Page 1 of 2


STATUS OF PRIOR YEARS’
FINDINGS AND
RECOMMENDATIONS
OMB Circular A–50 states that a management decision on audit recommendations shall be
made within a maximum of 6 months after a final report is issued. Corrective action should
proceed as rapidly as possible.

Status of 2011 Findings and Recommendations
Recommendation 2. We recommend that the Office of the Chief Financial Officer (a) develop
and implement a plan to complete its reconciliation of loan balances in the Phoenix accounting
system with the balances maintained in the PNC Enterprise Loan System and (b) ensure that all
Enterprise Loan System transactions transmitted to Phoenix via the interface are properly
accounted for and recorded in Phoenix.

Status: This recommendation is still pending final action. The Office of the CFO will continue to
work with the service provider to investigate and resolve differences between the Phoenix
accounting system and balances maintained by our loan service provider. The progress of the
Office of the CFO in reconciling loan restructurings was limited in FY 2011 because of
considerable turnover of staff in the Credit Program office, and we estimate that it will take 2.5
more years to complete past debt restructuring reconciliations. The target completion date is
June 30, 2014

Recommendation 3. We recommend that the Chief Financial Officer coordinate with the Office
of Acquisition and Assistance and with Bureau Assistant Administrators to (a) initiate targeted
reviews of non-GLAAS obligations and batch obligations for automatic deobligation for small-
dollar obligation balances, travel, operating-expense-funded obligations and program-funded
obligations that are older than 5 years; (b) utilize the services of independent public accounting
firms to expedite the close out audit process; and (c) require obligation officials to include
period-of-performance dates for all procurement type awards.

Status: This recommendation is still pending final action. The office of the CFO in coordination
with the Office of Acquisition and Assistance will continue to identify and reduce the current
contract and obligation closeout, and research the use of additional sources to expedite review.
As noted, the Office of the CFO will also collaborate with the Office of Acquisition and
Assistance to evaluate alternative service providers to expedite the closeout audit process. The
Office of CFO will continue to target specific areas for batched processing, including low-dollar,
miscellaneous and travel-related obligations. The target completion date is September 30, 2014.

Status of 2010 Findings and Recommendations
Recommendation 1. We recommend that the Chief Financial Officer (a) provide changes in its
crosswalk to the Department of Health and Human Services in a timely manner to ensure that
the Department of Health and Human Services charges all third-party transactions to


                                                                                               30
                                                                                    Appendix III
                                                                                    Page 2 of 2

appropriate appropriations; and (b) research and resolve all suspense items within the time
stipulated by the Department of Treasury.

Status: This recommendation is still pending final action. The Chief Financial Officer noted that
the auditor’s acknowledged that progress has been made in the reconciliation of current
transactions with the implementation of the fund balance reconciliation tool. The CFO will focus
on eliminating legacy differences, correcting the Health and Human Services crosswalk, and
clearing items from the suspense accounts within 60 days. The target completion date is
December 31, 2012.

Recommendation 2. We recommend that the Chief Financial Officer (a) intensify efforts to
reconcile loan balances with Midland’s ELS, (b) ensure that all transactions transmitted to
Phoenix via the interface are properly posted to Phoenix, and (c) complete debt restructuring
reconciliations within 90 days after Midland records debt restructurings in ELS.

Status: This recommendation is still pending final action. The Chief Financial Officer agreed to
implement the recommendation and will continue to work with the service provider to investigate
and resolve differences. The CFO will complete new debt restructuring reconciliations within
the time frame described above by training additional personnel, but it will take an estimated 2½
more years to complete past debt restructuring reconciliations. The target completion date is
June 30, 2013.

Status of 2005 Findings and Recommendations

In the FY 2005 audit report, OIG recommended that USAID’s Chief Financial Officer direct the
Financial Management Office to conduct quarterly intragovernmental reconciliations of activity
and balances with its trading partners in accordance with the requirements of the Federal
Intragovernmental Transactions Accounting Policies Guide, issued by the Department of
Treasury’s Financial Management Service.

Status: OIG has made no recommendations in the last few years because USAID is
continuously researching intragovernmental activity and developing new tools to improve its
reconciliation process and eliminate the differences.




                                                                                              31
Appendix IV




        32
Financial Statements


                                                       CONSOLIDATED BALANCE SHEET
                                                       As of September 30, 2012 and 2011 (In Thousands)
                                                                                                          2012               2011
 ASSETS:
 	Intragovernmental:
 		 Fund Balance with Treasury (Notes 2, 15 and 20)                                                   $	28,999,266       $	27,758,936
 		Accounts Receivable (Note 3)                                                                                 30                220
 		Other Assets (Note 4)                                                                                    85,395             96,219
 	Total Intragovernmental                                                                                 29,084,691         27,855,375

 	Cash and Other Monetary Assets (Note 5)                                                                    349,069            306,635
 	Accounts Receivable, Net (Note 3)                                                                           88,239             94,467
 	 Direct Loans and Loan Guarantees, Net (Note 6)                                                          2,773,576          3,392,381
 	Inventory and Related Property, Net (Note 7)                                                                29,607             43,679
 	 General Property, Plant, and Equipment, Net (Notes 8 and 9)                                                76,360             74,102
 	Advances (Notes 4 and 20)                                                                                  752,464            549,169
 	   Total Assets                                                                                     $	33,154,006       $	32,315,808

 LIABILITIES:
 	Intragovernmental:
 		Accounts Payable (Notes 10 and 15)                                                                 $	121,730          $	15,597
 		 Debt (Note 11)                                                                                      478,304              478,380
 		Liability for Capital Transfers to the General Fund of the Treasury (Note 11)                           2,613,998       3,198,706
 		Other Liabilities (Note 12)                                                                               756,861       1,445,425
 	Total Intragovernmental                                                                                  3,970,893          5,138,108

 	Accounts Payable (Note 10)                                                                               1,867,144          1,734,158
 	Loan Guarantee Liability (Notes 6 and 10)                                                                2,012,358          1,694,195
 	 Federal Employee and Veteran’s Benefits (Note 13)                                                          23,582             22,175
 	Other Liabilities (Notes 10, 12, and 13)                                                                   545,576            495,857
 	   Total Liabilities                                                                                    8,419,553          9,084,493

 	Commitments and Contingencies (Note 14)

 NET POSITION:
 	 Unexpended Appropriations                                                                              21,631,982         21,202,085
 	Cumulative Results of Operations                                                                         3,102,471          2,029,230
 	   Total Net Position (Notes 15 and 20)                                                             $	24,734,453       $	23,231,315


 Total Liabilities and Net Position                                                                   $	33,154,006       $	32,315,808

The accompanying notes are an integral part of these statements.


                                                                                                                                          32
                                                                 USAID FY 2012 Agency Financial report | FINANCIAL SECTION                79
                                          Consolidated Statement of Net Cost
                                                 For the Years Ended September 30, 2012 and 2011
                                                                  (In Thousands)
 OBJECTIVES                                                                                        2012             2011
 Peace and Security:
 	   Gross Costs                                                                               $	667,840        $	941,773
 	Less: Earned Revenue                                                                                (3,125)          (4,729)
 	Net Program Costs                                                                                 664,715          937,044

 Governing Justly and Democratically:
 	   Gross Costs                                                                                   2,706,340        1,844,205
 	Less: Earned Revenue                                                                                (9,092)          (9,379)
 	Net Program Costs                                                                                2,697,248        1,834,826

 Investing in People:
 	   Gross Costs                                                                                   2,977,778        3,266,444
 	Less: Earned Revenue                                                                             (619,153)    	(203,361)
 	Net Program Costs                                                                                2,358,625        3,063,083

 Economic Growth:
 	   Gross Costs                                                                                   3,770,600        4,137,161
 	Less: Earned Revenue                                                                             (308,266)        (887,933)
 	Net Program Costs                                                                                3,462,334        3,249,228

 Humanitarian Assistance:
 	   Gross Costs                                                                                   1,312,834        1,639,786
 	Less: Earned Revenue                                                                                (6,129)          (8,146)
 	Net Program Costs                                                                                1,306,705        1,631,640

 Operating Unit Management:
 	   Gross Costs                                                                                    656,833          530,837
 	Less: Earned Revenue                                                                                (3,095)   	(2,965)
 	Net Program Costs                                                                                 653,738          527,872
 Net Cost of Operations (Notes 16 and 17)                                                      $	11,143,365     $	11,243,693


The accompanying notes are an integral part of these statements.




                                                                                                                                 33
80                      USAID FY 2012 Agency Financial report | FINANCIAL SECTION
                                CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                                     For the Years Ended September 30, 2012 and 2011
                                                                       (In Thousands)
                                                                                                        2012                  2011
                                                                                               Consolidated Total     Consolidated Total

 Cumulative Results of Operations:
 	   Beginning Balances                                                                            $	2,029,230           $	1,773,146
 		Adjustments – Changes in Accounting Principles                                                  	–                    	–
 	   Beginning Balances, as Adjusted                                                                    2,029,230             1,773,146

 Budgetary Financing Sources:
 		Appropriations Used                                                                                 11,205,517            11,361,601
 		Nonexchange Revenue                                                                                         368       	–
 		     Donations and Forfeitures of Cash and Cash Equivalents                                            225,759               122,076
 Other Financing Sources (Non-Exchange):
 	Transfers-in/out Without Reimbursement                                                                  754,968        	–
 	Imputed Financing                                                                                        29,994                16,100
 	Total Financing Sources                                                                              12,216,606            11,499,777
 	Net Cost of Operations                                                                               (11,143,365)          (11,243,693)
 	Net Change                                                                                            1,073,241               256,084

 Cumulative Results of Operations                                                                       3,102,471             2,029,230

 Unexpended Appropriations:
 	 Beginning Balance                                                                                   21,202,085            21,108,712

 Budgetary Financing Sources:
 		Appropriations Received                                                                             11,536,737            11,737,457
 		Appropriations Transferred in/out                                                                       75,479                 (8,906)
 		Other Adjustments                                                                                       23,198              (273,577)
 		Appropriations Used                                                                                 (11,205,517)          (11,361,601)
 		Total Budgetary Financing Sources                                                                      429,897                93,373
 	Total Unexpended Appropriations                                                                      21,631,982            21,202,085
  Net Position (Note 20)                                                                           $	24,734,453          $	23,231,315


The accompanying notes are an integral part of these statements.




                                                                                                                                            34
                                                                 USAID FY 2012 Agency Financial report | FINANCIAL SECTION                  81
                                    COMBINED STATEMENT OF BUDGETARY RESOURCES
                                                   For the Years Ended September 30, 2012 and 2011
                                                                    (In Thousands)
                                                                                        2012                              2011
                                                                                         Non-Budgetary                     Non-Budgetary
                                                                         Budgetary       Credit Reform     Budgetary       Credit Reform
Budgetary Resources:
	 Unobligated Balance, Brought Forward, October 1                        $	7,875,446      $	2,421,365      $	6,890,873      $	2,381,989
	Adjustment to Unobligated Balance Brought Forward, October 1 (+ or -)   	–               	–               	–               	–
		 Unobligated Balance Brought Forward, October 1, as Adjusted             7,875,446        2,421,365        6,890,873        2,381,989
	 Recoveries of Prior Year Unpaid Obligations                                472,000             20          2,046,388            310
	Other Changes in Unobligated Balance (+ or -)                           	(118,331)       	(71)            	(221,048)       	–
	 Unobligated Balance from Prior Year Budget Authority, Net                8,229,115      2,421,314          8,716,214      2,382,299
	Appropriations (Discretionary and Mandatory)                             11,575,665      	(18)             11,699,661      	–
	 Borrowing Authority (Discretionary and Mandatory)                      	–               	–               	–                      96
	Contract Authority (Discretionary and Mandatory)                        	–               	–               	–               	–
	Spending Authority from Offsetting Collections (Discretionary
		and Mandatory)                                                              812,068           209,557         712,524            281,126
Total Budgetary Resources                                                $	20,616,848     $	2,630,853      $	21,128,398     $	2,663,521

Status of Budgetary Resources:
	Obligations Incurred (Note 20):                                         $	12,541,533     $	752,560        $	13,252,952     $	242,156
		 Unobligated balance, End of Year:
   		Apportioned                                                         7,398,435          309,839        7,265,534          310,302
   		Exempt from Apportionment                                           	–               	–               	–               	–
   		Unapportioned                                                         676,880        1,568,454          609,912        2,111,063
	Total Unobligated Balance, End of Year                                     8,075,315          1,878,293      7,875,446          2,421,365
Total Budgetary Resources                                                $	20,616,848     $	2,630,853      $	21,128,398     $	2,663,521


                                                                                                                            (continued on next page)




                                                                                                                                           35
82                  USAID FY 2012 Agency Financial report | FINANCIAL SECTION
                              COMBINED STATEMENT OF BUDGETARY RESOURCES (continued)
                                                      For the Years Ended September 30, 2012 and 2011
                                                                        (In Thousands)

                                                                                               2012                             2011
                                                                                                Non-Budgetary                    Non-Budgetary
                                                                              Budgetary         Credit Reform   Budgetary        Credit Reform

 Change in Obligated Balance:
 	 Unpaid Obligations, Brought Forward, October 1 (Gross)                     $	17,505,109       $	(282)        $	17,932,333      $	(160)
 	 Uncollected Customer Payments from Federal Sources,
 		 Brought Forward, October 1 (-)                                                  (34,395)             35     	(24,907)                35
 		Obligated Balance, Start of Year (Net), Before Adjustments (+ or -)        17,470,714          (247)         17,907,426        	(125)
 	Adjustment to Obligated Balance, Start of Year (Net) (+ or -)               	–                 	–             	–                	–
 	Obligated Balance, Start of Year (Net), as Adjusted                            17,470,714          (247)        17,907,426      	(125)
 	Obligations Incurred (Note 20)                                                 12,541,533       752,560         13,252,952        242,156
 	Outlays (Gross) (-) (Note 20)                                                 (11,236,564)     (750,958)      	(11,633,784)     	(241,968)
 	Change in Uncollected Customer Payments from Federal Sources (+ or -)              (6,085)     	–             	(9,487)          	–
 	 Recoveries of Prior Year Unpaid Obligations (-)                                 (472,000)          (20)      	(2,046,388)      	(310)
 	Obligated balance, End of Year
 		 Unpaid Obligations, End of Year (Gross)                                     18,338,078             1,300      17,505,109      	(282)
 		 Uncollected Customer Payments from Federal Sources, End of Year                (40,480)               35         (34,395)        35
 	   Obligated Balance, End of Year (Net)                                     $	18,297,598       $	1,335        $	17,470,714      $	(247)

 Budget Authority and Outlays, Net:
    Budget Authority, Gross (Discretionary and Mandatory)                     $	12,387,732       $	209,540      $	12,412,185      $	281,222
    Actual Offsetting Collections (Discretionary and Mandatory)                 (1,077,951)        (209,558)    	(966,312)        	(281,133)
    Change in Uncollected Customer Payments from Federal Sources
       (Discretionary and Mandatory)                                                 (6,085)     	–             	(9,487)          	–
     Budget Authority, Net (Discretionary and Mandatory)                      $	11,303,696       $	(18)          $11,436,386            $89

     Outlays, Gross (Discretionary and Mandatory) (Note 20)                   $	11,236,564       $	750,958      $	11,633,784      $	241,968
     Actual Offsetting Collections (Discretionary and Mandatory)              	(1,077,951)       	(209,558)     	(966,312)        	(281,133)
     Outlays, Net (Discretionary and Mandatory)                                 10,158,613         541,400        10,667,472      	(39,165)
     Distributed Offsetting Receipts (-)                                          (923,914)      	–                 (377,859)     	–
 Agency Outlays, Net (Discretionary and Mandatory)                            $	9,234,699        $	541,400      $	10,289,614      $	(39,165)

The accompanying notes are an integral part of these statements.




                                                                                                                                          36
                                                                   USAID FY 2012 Agency Financial report | FINANCIAL SECTION                   83
Notes to the
Financial Statements

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

A. Basis of Presentation                      Programs                                        with the USAID. This fund is also used
                                                                                              for related reconstruction and stabiliza-
The accompanying principal financial          The statements present the financial activity   tion assistance to prevent or respond to
statements report USAID’s financial           of various programs and accounts managed        conflict or civil strife in foreign countries
position and results of operations.           by USAID. The programs include Assis-           or regions, or to enable transition from
They have been prepared using USAID’s         tance for Europe, Eurasia, and Central          such strife.
books and records in accordance with          Asia; Civilian Stabilization Initiative;
Agency accounting policies, the most          Capital Investment Fund; Economic
significant of which are summarized in        Support Fund; Development Assistance;           Capital Investment Fund
this note. The statements are presented in    International Disaster Assistance; Global
accordance with the guidance and require-     Health and Child Survival; Complex Crisis       This fund provides for the necessary
ments of the Office of Management and         Fund; Transition Initiatives; and Direct and    expenses for overseas construction and
Budget (OMB) Circular A-136, Financial        Guaranteed Loan Programs. This classifica-      related costs, and for the procurement
Reporting Requirements.                       tion is consistent with the Budget of the       and enhancement of information tech-
                                              United States.                                  nology and related capital investments.
USAID accounting policies follow                                                              Specifically, this fund provides assistance in
generally accepted accounting principles                                                      supporting the GLAAS system.
for the Federal government, as established    Assistance for Europe, Eurasia,
by the Federal Accounting Standards           and Central Asia
Advisory Board (FASAB). The FASAB has                                                         Economic Support Fund
                                              Funds appropriated under this heading are
been recognized by the American Institute                                                     The Economic Support Fund (ESF)
                                              considered to be economic assistance under
of Certified Public Accountants (AICPA)                                                       supports U. S. foreign policy objectives by
                                              the Foreign Assistance Act of 1961.
as the official accounting standard setting                                                   providing economic assistance to allies
authority for the Federal government.         This account provides funds for a program       and countries in transition to democracy.
These standards have been agreed to, and      of assistance to the independent states that    Programs funded through this account
published by the Director of the OMB,         emerged from the former Soviet Union.           promote stability and U.S. security
the Secretary of the Treasury, and the        These funds support the U.S. foreign policy     interests in strategic regions of the world.
Comptroller General.                          goals of improved U.S. security; building a
                                              lasting partnership with the new indepen-
                                              dent states; and providing access to each       Development Assistance
B. Reporting Entity                           other’s markets, resources, and expertise.
                                                                                              This program provides economic resources
Established in 1961 by President John                                                         to developing countries with the aim of
F. Kennedy, USAID is the independent          Civilian Stabilization Initiative               bringing the benefits of development to
U.S. Government agency that provides                                                          the poor. The program promotes broad-
economic development and humanitarian         This fund provides support for the
                                                                                              based, self-sustaining economic growth,
assistance to advance United States           necessary expenses needed to establish,
                                                                                              opportunity, and supports initiatives
economic and political interests overseas.    support, maintain, mobilize, and deploy
                                                                                              intended to stabilize population growth,
                                              a civilian response corps in coordination
                                                                                              protect the environment and foster



                                                                                                                                      37
84                USAID FY 2012 Agency Financial report | FINANCIAL SECTION
increased democratic participation in         Transition Initiatives                              activities in developing countries by
developing countries. The program is                                                              providing direct loans and loan guar-
concentrated in those areas in which the      This fund provides for humanitarian                 antees to support local micro and small
United States has special expertise and       programs that provide post-conflict                 enterprises. The MSED program is
which promise the greatest opportunity        assistance to victims of both natural and           substantially inactive and will be closed;
for the poor to better their lives.           man-made disasters. The program supports            the bulk of USAID’s new credit activity
                                              U.S. foreign policy objectives by helping           is handled through the Development
                                              local partners advance peace and democracy          Credit Authority (DCA) Program.
International Disaster Assistance             in priority countries in crisis. Seizing
                                              critical windows of opportunity, the Office       •	 Israel Loan Guarantee Program
Funds for the International Disaster          of Transition Initiatives (OTI) works on the        Congress authorized the Israel Loan
Assistance Program provide relief,            ground to provide fast, flexible, short-term        Guarantee Program in Section 226 of
rehabilitation, and reconstruction            assistance targeted at key political transition     the Foreign Assistance Act to support
assistance to foreign countries struck        and stabilization needs.                            the costs for immigrants resettling to
by disasters such as famines, floods,
                                                                                                  Israel from the former Soviet Union,
hurricanes and earthquakes. The program
                                              Direct and Guaranteed Loans                         Ethiopia, and other countries. Under
also provides assistance in disaster
                                                                                                  this program, the U.S. Government
preparedness, prevention and mitigation;
                                              •	 Direct Loan Program                              guaranteed the repayment of up to
providing emergency commodities and
                                                 These loans are authorized under                 $10 billion in loans from commercial
services for immediate healthcare and
                                                 the Foreign Assistance Acts, various             sources. Borrowing was completed
nutrition. Additionally, this fund supports
                                                 predecessor agency programs, and other           under the program during FY 1999,
the capability to provide timely emergency
                                                 foreign assistance legislation. Direct           with approximately $9.2 billion being
response to disasters worldwide.
                                                 Loans are issued in both U.S. dollars and        guaranteed, of which $7.2 billion is
                                                 the currency of the borrower. Foreign            currently outstanding. Guarantees
Global Health and Child Survival                 currency loans made “with maintenance            were made by USAID on behalf of
                                                 of value” place the risk of currency             the U.S Government.
This fund provides economic resources to         devaluation on the borrower, and are
developing countries to support programs                                                          In FY 2003, Congress authorized a
                                                 recorded in equivalent U.S. dollars.
to improve infant and child nutrition,                                                            second Israel Loan Guarantee Program
                                                 Loans made “without maintenance of
with the aim of reducing infant and child                                                         of up to $9.0 billion to support Israel’s
                                                 value” place the risk of devaluation on
mortality rates; to reduce HIV transmis-                                                          comprehensive economic program
                                                 the U.S. Government, and are recorded
sion and the impact of the HIV/AIDS                                                               to overcome economic difficulties
                                                 in the foreign currency of the borrower.
pandemic in developing countries; to                                                              and create conditions for higher and
reduce the threat of infectious diseases of   •	 Urban and Environmental                          sustainable growth. $4.1 billion has
major public health importance such as           Program                                          been borrowed under this program,
polio, and malaria; and to expand access                                                          of which the entire $4.1 billion is
                                                 The Urban and Environmental (UE)
to quality basic education for girls and                                                          currently outstanding.
                                                 Program, formerly the Housing
women.                                           Guarantee Program, extends guaran-             •	 Development Credit Authority
                                                 ties to U.S. private investors who make
                                                                                                  The first obligations for USAID’s
Complex Crisis Fund                              loans to developing countries to assist
                                                                                                  Development Credit Authority (DCA)
                                                 them in formulating and executing
                                                                                                  were made in FY 1999. The DCA
This fund provides for necessary expenses        sound housing and community devel-
                                                                                                  allows missions and other offices to use
to carry out the provisions of the Foreign       opment policies that meet the needs of
                                                                                                  loans and loan guarantees to achieve
Assistance Act of 1961 to enable USAID           lower income groups.
                                                                                                  their development objectives when
to support programs and activities to
                                              •	 Micro and Small Enterprise                       it can be shown that (1) the project
prevent or respond to emerging or unfore-
                                                 Development Program                              generates enough revenue to cover the
seen complex crises overseas.
                                                                                                  debt service including USAID fees,
                                                 The Micro and Small Enterprise
                                                                                                  (2) there is at least 50% risk-sharing
                                                 Development (MSED) Program was
                                                                                                  with a private-sector institution, and (3)
                                                 designed to support private sector



                                                                                                                                     38
                                                     USAID FY 2012 Agency Financial report | FINANCIAL SECTION                            85
     the DCA guarantee addresses a financial    Fund Types                                      C. Basis of Accounting
     market failure in-country and does not     The consolidated financial statements
     “crowd-out” private sector lending.                                                        Transactions are recorded on both an
                                                include the accounts of all funds under         accrual and budgetary basis. Under the
     The DCA can be used in any sector and      USAID’s control. Most of the fund
     by any USAID operating unit whose                                                          accrual basis, revenues are recognized
                                                accounts relate to general fund appro-          when earned and expenses are recognized
     project meets the DCA criteria. DCA        priations. USAID also has special funds,
     projects are approved by the Agency                                                        when a liability is incurred, without regard
                                                revolving funds, trust funds, deposit           to receipt or payment of cash. Budgetary
     Credit Review Board and the Chief          funds, a capital investment fund, receipt
     Financial Officer.                                                                         accounting facilitates compliance with
                                                account, and budget clearing accounts.          legal constraints on, and controls of, the
•	 Loan Guarantees to Egypt                     General fund appropriations and the             use of federal funds. The accompanying
   Program                                      Special fund are used to record financial       Balance Sheet, Statement of Net Cost,
     The Loan Guarantees to Egypt Program       transactions under Congressional appro-         and Statement of Changes in Net Position
     was established under the Emergency        priations or other authorization to spend       have been prepared on an accrual basis.
     Wartime Supplemental Appropria-            general revenue.                                The Statement of Budgetary Resources
     tions Act of 2003. Under this program,                                                     has been prepared in accordance with
     the U.S. Government was authorized         Revolving funds are established by law to       budgetary accounting rules.
     to issue an amount not to exceed           finance a continuing cycle of operations,
     $2 billion in loan guarantees to Egypt     with receipts derived from such opera-
                                                                                                D. Budgets and Budgetary
     during the period beginning March 1,       tions usually available in their entirety for
                                                                                                Accounting
     2003 and ending September 30, 2005.        use by the fund without further action by
     New loan guarantees totaling $1.25         Congress.                                       The components of USAID’s budgetary
     billion were issued in FY 2005 before                                                      resources include current budgetary
     the expiration of the program.             Trust funds are credited with receipts          authority (that is, appropriations and
                                                generated by the terms of the trust             borrowing authority) and unobligated
•	 Loan Guarantee to Tunisia                    agreement or statute. These receipts            balances remaining from multi-year and
   Program                                      may be either unavailable for collection,       no-year budget authority received in prior
     The Loan Guarantee to Tunisia              or immediately available for collection         years. Budget authority is the authoriza-
     Program was established under Title        depending upon the statutory require-           tion provided by law to enter into financial
     III of the Department of State, Foreign    ments governing establishment of the            obligations that result in immediate or
     Operations, and Related Programs           trust.                                          future outlays of federal funds. Budgetary
     Appropriations Act, 2012, Division I of                                                    resources also include reimbursement and
                                                The capital investment fund contains
     Public Law 112-74, to provide support                                                      other income (that is, spending authority
                                                no-year (non-expiring) funds to provide
     for the Republic of Tunisia through a                                                      from offsetting collections credited to
                                                the Agency with greater flexibility to
     loan guarantee. Under this program,                                                        an appropriation of fund account) and
                                                manage investments in technology
     the U.S. Government was authorized                                                         adjustments (that is, recoveries of prior
                                                systems and facility construction that
     to issue guarantees with respect to the                                                    year obligations).
                                                the annual appropriation for Operating
     payment obligations of Tunisia for
                                                Expenses does not allow.                        Unobligated balances associated with
     notes, for which USAID’s budget cost,
     calculated in accordance with Federal                                                      appropriations that expire at the end
                                                Deposit funds are established for
     Credit Reform Act of 1990, would not                                                       of the fiscal year remain available for
                                                (1) amounts received for which USAID
     exceed $30 million. Using this budget                                                      obligation adjustments, but not new
                                                is acting as a fiscal agent or custodian,
     cost as a basis for determining the loan                                                   obligations, for five additional years until
                                                (2) unidentified remittances, (3) monies
     guarantee, Tunisia issued Notes totaling                                                   the account is canceled. Any amounts
                                                withheld from payments for goods or
     $485 million in FY 2012.                                                                   remaining in canceled accounts are not
                                                services received, and (4) monies held
                                                                                                available for obligations or expenditure for
                                                awaiting distribution on the basis of legal
                                                                                                any purpose, and are returned to the U.S.
                                                determination.
                                                                                                Treasury.




                                                                                                                                      39
86                  USAID FY 2012 Agency Financial report | FINANCIAL SECTION
The “Consolidated Appropriations Act”          governments and the public. Imputed             revenue generating sources based on a
signed into law as P.L. 112-74 provides        revenues are reported in the financial state-   historical analysis of collectability.
to USAID extended authority to obligate        ments to offset imputed costs. Amounts
funds. USAID’s appropriations have             received from other Federal agencies under
                                                                                               I. DIRECT LOANS AND LOAN
consistently provided essentially similar      reimbursable agreements are recognized as
                                                                                               GUARANTEES
authority, now known as “7011/511”             revenue as related expenditures are incurred.
authority. Under this authority, funds                                                         Loans are accounted for as receivables after
shall remain available for obligation for an                                                   funds have been disbursed. For loans
extended period if such funds are initially    F. Fund Balance with
                                                                                               obligated before October 1, 1991 (the
obligated within their initial period of       the U.S. Treasury
                                                                                               pre-credit reform period), loan principal,
availability.                                                                                  interest, and penalties receivable are reduced
                                               Cash receipts and disbursements are
                                                                                               by an allowance for estimated uncollectible
                                               processed by the U.S. Treasury. The fund
                                                                                               amounts. The allowance is estimated based
E. Revenues and Other                          balances with Treasury are primarily
                                                                                               on a net present value method prescribed by
Financing Sources                              appropriated funds that are available to
                                                                                               OMB that takes into account country risk
                                               pay current liabilities and finance autho-
                                                                                               and projected cash flows.
USAID receives the majority of its funding     rized purchase commitments, but they
through congressional appropriations           also include revolving, deposit, and trust      Loans obligated on or after October 1,
--annual, multi-year, and no-year (non-        funds.                                          1991 are reduced by an allowance equal to
expiring) appropriations -- that may be                                                        the net present value of the cost to the
used within statutory limits. Appropria-                                                       U. S. Government of making the loan.
tions are recognized as a financing source     G. Foreign Currency
                                                                                               This cost, known as “subsidy”, takes into
(i.e. Appropriations used) on the Statement                                                    account all cash inflows and outflows
                                               The Direct Loan Program has foreign
of Change in Net Position at the time the                                                      associated with the loan, including the
                                               currency funds, which are used to disburse
related program or administrative expenses                                                     interest rate differential between the loans
                                               loans in certain countries. Those balances
are incurred. Appropriations expended for                                                      and Treasury borrowing, the estimated
                                               are reported at U.S. dollar equivalents
capitalized property and equipment are                                                         delinquencies and defaults net of recoveries,
                                               using the exchange rates prescribed by
not recognized as expenses. In addition to                                                     and offsets from fees and other estimated
                                               the U.S. Treasury. A gain or loss on
funds warranted directly to USAID, the                                                         cash flows. This allowance is re-estimated
                                               conversion is recognized for the change
agency also receives allocation transfers                                                      when necessary and any changes are
                                               in valuation of foreign currencies at
from the U.S. Department of Agriculture                                                        reflected in the operating statement.
                                               year-end. Additionally, some USAID
(USDA) Commodity Credit Corporation,
                                               host countries contribute funds for the         Loans have been made in both U.S. dollars
the Executive Office of the President, the
                                               overhead operation of the host mission          and foreign currencies. Loans extended in
Department of State, and Millennium
                                               and the execution of USAID programs.            foreign currencies can be with or without
Challenge Corporation (MCC).
                                               These funds are held in trust and reported      “Maintenance of Value” (MOV).
Additional financing sources for USAID’s       in U.S. dollar equivalents on the Balance       Those with MOV place the currency
various credit programs and trust funds        Sheet and Statement of Net Costs.               exchange risk upon the borrowing govern-
include amounts obtained through col-                                                          ment; those without MOV place the risk
lection of guaranty fees, interest income      H. Accounts Receivable                          on USAID. Foreign currency exchange gain
on rescheduled loans, penalty interest on                                                      or loss is recognized on those loans
delinquent balances, permanent indefinite      Accounts receivable consist of amounts          extended without MOV, and reflected in
borrowing authority from the U.S. Treasury,    due mainly from foreign governments             the net receivable balance of the credit
proceeds from the sale of overseas real        but also from other Federal agencies and        programs.
property acquired by USAID, and advances       private organizations. USAID regards
from foreign governments and international     amounts due from other Federal agencies         Credit program receivables also include
organizations.                                 as 100 percent collectible. The Agency          origination and annual fees on outstanding
                                               establishes an allowance for uncollect-         guarantees, interest on rescheduled loans
Revenues are recognized as financing           ible accounts receivable for non-loan or        and late charges. Claims receivables
sources to the extent that they are received                                                   (subrogated and rescheduled) are due from
by USAID from other agencies, other



                                                                                                                                      40
                                                     USAID FY 2012 Agency Financial report | FINANCIAL SECTION                            87
foreign governments as a result of defaults      L. Property, Plant and                           which USAID’s loan programs finance
for pre-1992 guaranteed loans. Receivables       Equipment                                        their activities. The main purpose of CRA
are stated net of an allowance for uncol-                                                         was to more accurately measure the cost
lectible accounts; determined using an           USAID capitalizes all property, plant and        of Federal credit programs and to place
OMB approved net present value default           equipment that have an acquisition cost          the cost of such programs on a budgetary
methodology.                                     of $25,000 or greater and a useful life of       basis equivalent to other Federal spending.
                                                 two years or more. Acquisitions that do          Consequently, commencing in FY 1992,
While estimates of uncollectible loans and       not meet these criteria are recorded as          USAID can only issue new loans or loan
interest are made using methods prescribed       operating expenses. Assets are capitalized       guarantees with an appropriation available
by OMB, the final determination as to            at historical cost, depending on when            to fund the cost of making the loan or
whether a loan is collectible is also affected   the asset was put into production and            guarantee. This cost is known as the
by actions of other U.S. Government              depreciated using the straight-line method       “subsidy.”
agencies.                                        (mid-year and mid-quarter). Real property
                                                 is depreciated over 20 years, nonexpend-         For USAID’s loan guarantee programs,
                                                 able personal property is depreciated over       when guarantee commitments are made,
J. Advances                                      three to five years, and capital leases are      an obligation for subsidy cost is recorded
                                                 depreciated according to the terms of the        in the program account. This cost is based
Funds disbursed in advance of incurred
                                                 lease. The Agency operates land, buildings,      on the net present value of the estimated
expenditures are recorded as advances.
                                                 and equipment that are provided by               net cash outflows to be paid by the
Most advances consist of funds disbursed
                                                 the General Services Administration.             Program as a result of the loan guarantees,
under letters of credit to contractors and
                                                 Internal use software that has development       except for administrative costs, less the net
grantees. The advances are liquidated
                                                 costs of $300,000 or greater is capital-         present value of all cash inflows to be
and recorded as expenses upon receipt of
                                                 ized. Deferred maintenance amounts are           generated from those guarantees. When
expenditure reports from the recipients.
                                                 immaterial with respect to the financial         the loans are disbursed, the subsidy cost is
                                                 statements.                                      disbursed from the program account to a
K. Inventory and Related                                                                          financing account.
Property
                                                 M. Liabilities                                   For loan guarantees made before the CRA
USAID’s inventory and related property                                                            (pre-1992), the liability for loan guaran-
                                                 Liabilities represent the amount of monies       tees represents an unfunded liability.
are comprised of life essential materials
                                                 or other resources that are likely to be paid    Footnote 6 presents the unfunded
and supplies. The Agency has materials
                                                 by USAID as the result of transactions or        amounts separate from the post-1991
and supplies in reserve for foreign disaster
                                                 events that have already occurred. However,      liabilities. The amount of unfunded
assistance stored at strategic sites around
                                                 no liability can be paid by the Agency           liabilities also represents a future funding
the world. These consist of tents, disaster
                                                 without an appropriation or borrowing            requirement for USAID. The liability is
kits, field packs, and water purification
                                                 authority. Liabilities for which an appropria-   calculated using a reserve methodology
units.
                                                 tion has not been enacted are therefore clas-    that is similar to the OMB prescribed
Agency supplies held in reserve for future       sified as liabilities not covered by budgetary   method for post-1991 loan guarantees.
use are those that are not readily available     resources (unfunded liabilities), and there
in the market, or for which there is more        is no certainty that the appropriations will
than a remote chance that the supplies will      be enacted. Also, these liabilities can be       O. Annual, Sick, and
be needed, but not in the normal course          abrogated by the U.S. Government, acting         Other Leave
of operations. Their valuation is based on       in its sovereign capacity.
cost and they are not considered “held for                                                        Annual leave is accrued as it is earned and
sale.” USAID has no supplies categoriz-                                                           the accrual is reduced as leave is taken.
                                                 N. Liabilities for Loan                          Each year, the balance in the accrued
able as excess, obsolete, or unserviceable       Guarantees
operating materials and supplies.                                                                 annual leave account is adjusted to reflect
                                                 The Credit Reform Act (CRA) of 1990,             current pay rates. To the extent that
                                                 which became effective on October 1,             current or prior year appropriations are
                                                 1991, significantly changed the manner in        not available to fund annual leave earned
                                                                                                  but not taken, funding will be obtained



                                                                                                                                        41
88                  USAID FY 2012 Agency Financial report | FINANCIAL SECTION
from future financing sources. Sick leave     Q. Commitments and                               outside the budget. For USAID, non-
and other types of leave are expensed as      Contingencies                                    entity assets are minimal in amount as
taken.                                                                                         reflected in Note 3, composed solely of
                                              A contingency is an existing condition,          accounts receivable, net of allowances.
                                              situation or set of circumstances involving
P. Retirement Plans and                       uncertainty as to possible gain or loss to
Post Employment Benefits                      USAID. The uncertainty will ultimately           T. Agency Costs
                                              be resolved when one or more future
USAID recognizes its share of the cost        events occur or fail to occur. For pending,      USAID’s costs of operations are
of providing future pension benefits          threatened or potential litigation, a            comprised of program and operating
to eligible employees over the period         liability is recognized when a past trans-       expenses. USAID/Washington program
of employment with the Agency.                action or event has occurred, a future           and Mission related expenses, by
The pension expense recognized in the         outflow or other sacrifice of resources          objective, are obtained directly from
financial statements equals the current       is likely, and the related future outflow        Phoenix, the Agency’s general ledger.
service cost for USAID employees              or sacrifice of resources is measurable.         A cost allocation model is used to
for the accounting period less the            For other litigations, a contingent liability    distribute operating expenses – including
amount contributed by the employees.          is recognized when similar events occur          Management Bureau, Global Develop-
The measurement of the service cost           except that the future outflow or other          ment Alliance, Trust Funds and Support
requires the use of an actuarial cost         sacrifice of resources is more likely than       Offices costs – to specific goals.
method and assumptions. The Office            not. Footnote 14 identifies commitments          Expenses related to Credit Reform and
of Personnel Management (OPM)                 and contingency liabilities.                     Revolving Funds are directly applied to
administers these benefits and provides                                                        specific agency goals based on their
the factors that USAID applies to report                                                       objectives.
the cost. The excess of the pension           R. Net Position
expense over the amount contributed
by USAID and employees represents             Net position is the residual differ-             U. Parent/Child Reporting
the amount being financed directly            ence between assets and liabilities. It is
                                              composed of unexpended appropriations            USAID is a party to allocation transfers
through the Civil Service Retirement and
                                              and cumulative results of operations.            with other federal agencies as both a trans-
Disability Fund administered by OPM.
                                                                                               ferring (parent) entity and receiving (child)
This cost is considered an imputed cost to    •	 Unexpended appropriations are the             entity. Allocation transfers are legal delega-
USAID.                                           portion of the appropriations repre-          tions by one department of its ability to
USAID recognizes a current period                sented by undelivered orders and              obligate budget authority and outlay funds
expense for the future cost of post retire-      unobligated balances.                         to another department. A separate fund
ment health benefits and life insurance for                                                    account (allocation account) is created in
                                              •	 Cumulative results of operations reflects     the U.S. Treasury as a subset of the parent
its employees while they are still working.      the net difference between (i) expenses
USAID accounts for and reports this                                                            fund account for tracking and reporting
                                                 and losses and (ii) financing sources,        purposes. All allocation transfers of balances
expense in its financial statements in a         including appropriations, revenues and
manner similar to that used for pensions,                                                      are credited to this account, and subse-
                                                 gains, since the inception of the activity.   quent obligations and outlays incurred by
with the exception that employees and
USAID do not make contributions to                                                             the child entity are charged to this alloca-
fund these future benefits.                   S. Non-entity Assets                             tion account as they execute the delegated
                                                                                               activity on behalf of the parent entity.
Federal employee benefit costs paid           Non-entity fund balances are amounts in          Generally, all financial activity related
by OPM and imputed by USAID are               Deposit Fund accounts. These include             to these allocation transfers (e.g. budget
reported on the Statement of Net Cost.        such items as: funds received from outside       authority, obligations, outlays) is reported
                                              sources where the government acts as             in the financial statements of the parent
                                              fiscal agent, monies the government has          entity, from which the underlying legisla-
                                              withheld awaiting distribution based on          tive authority, appropriations, and budget
                                              legal determination, and unidentified            apportionments are derived. Per OMB
                                              remittances credited as suspense items           guidance, child transfer activities are to be



                                                                                                                                      42
                                                     USAID FY 2012 Agency Financial report | FINANCIAL SECTION                            89
included and parent transfer activities are to     NOTE 2. FUND BALANCE WITH TREASURY
be excluded in trial balances. Exceptions to
this general rule affecting USAID include          Fund Balance with Treasury as of September 30, 2012 and 2011 consisted of the following:
the Executive Office of the President, for
whom USAID is the child in the alloca-                                      Fund Balance with Treasury
tion transfer but, per OMB guidance, will                                                      (In Thousands)
report all activity relative to these allocation    Fund Balance                                                    2012                 2011
transfers in USAID’s financial statements.
                                                    Trust Funds                                                  $	278,101           $	142,393
In addition to these funds, USAID allocates
funds as the parent to:                             Revolving Funds                                                 6,198,094           5,790,820
                                                    Appropriated Funds                                             21,869,063          21,825,809
•	 Department of Energy                             Other Funds                                                      654,008         	(86)

•	 Department of Interior                           Total                                                        $	28,999,266        $	27,758,936

                                                    Status of Fund Balance with Treasury                            2012                 2011
•	 Department of Labor
                                                    Unobligated Balance
•	 Department of State                              	Available                                                   $	7,708,272         $	7,575,836

•	 Department of the Treasury                       	Unavailable                                                    2,245,334           2,720,975
                                                    Obligated and Other Balances Not Yet Disbursed (Net)           19,045,660          17,462,125
•	 Nuclear Regulatory Commission                    Total                                                        $	28,999,266        $	27,758,936

USAID receives allocation transfers
as the child from:                                 Fund Balances with Treasury are the                     include balances for non-budgetary funds
                                                   aggregate amounts of USAID’s accounts                   and unfilled customer orders without
•	 Department of State
                                                   with Treasury for which the agency is                   advances. The unobligated and obligated
•	 Executive Office of the President               authorized to make payments. Other                      balances are reflected on the Combined
                                                   Funds include credit program and                        Statement of Budgetary Resources.
•	 Millennium Challenge Corporation                operating funds which are established                   The total available unobligated balance
                                                   to record amounts held for the a loan                   includes expired funds which are available
•	 Department of Agriculture,                      guarantee and other operating funds.                    for upward adjustments, however they are
   Commodity Credit Corporation.                                                                           not available to incur new obligations. In
                                                   Unobligated balances become available                   the Combined Statement of Budgetary
                                                   when apportioned by the OMB for obli-                   Resources the expired fund balance is
                                                   gation in the current fiscal year. Obligated            included in Unobligated Balances Not
                                                   and other balances not yet disbursed (net)              Available.




                                                                                                                                                43
90                   USAID FY 2012 Agency Financial report | FINANCIAL SECTION
NOTE 3. ACCOUNTS RECEIVABLE, NET
The primary components of USAID’s accounts receivable as of September 30, 2012 and 2011 are as follows:

                                                        Accounts Receivable, Net
                                                                       (In Thousands)

                                                                    Receivable            Allowance          Receivable Net        Receivable Net
                                                                      Gross               Accounts                2012                  2011
 Intragovernmental
 	Appropriation Reimbursements from Federal Agencies                $	10                  	N/A                  $	10                  $	356
 	Accounts Receivable from Federal Agencies                            330,845            	N/A                     330,845                31,410
 	Less Intra-Agency Receivables                                       (330,825)           	N/A                     (330,825)              (31,546)
 Total Intragovernmental Accounts Receivable                               30             	N/A                          30                   220
 Accounts Receivable from the Public                                    93,685                 (5,446)              88,239                94,467
 Total Receivables                                                  $	93,715              $	(5,446)             $	88,269              $	94,687


Entity intragovernmental accounts                      All other entity accounts receivable consist      based on a historical analysis of collect-
receivable consist of amounts due                      of amounts managed by missions or                 ability. Accounts receivable from missions
from other U.S. Government agencies.                   USAID/Washington. These receivables               are collected and recorded to the respec-
No allowance accounts have been                        consist of overdue advances, unre-                tive appropriation.
established for the intragovernmental                  covered advances, and audit findings.
accounts receivable, which are considered              The allowance for uncollectible accounts          Interest receivable is calculated separately,
to be 100% collectible.                                related to these receivables is calculated        and there is no interest included in the
                                                                                                         accounts receivable listed above.


NOTE 4. OTHER ASSETS
Advances as of September 30, 2012 and 2011 consisted of the following:
                                                                                                         Intragovernmental Other Assets are
                                               Advances
                                                                                                         comprised of advance payments to other
                                               (In Thousands)                                            Federal Government entities for agency
                                                                        2012              2011           expenses not yet incurred and for goods
 Intragovernmental                                                                                       and services not yet received.
 	Advances to Federal Agencies                                       $	85,395           $	96,219
                                                                                                         Advances to Contractors/Grantees are
 Total Intragovernmental                                                 85,395             96,219       amounts that USAID pays to them to
 	Advances to Contractors/Grantees                                      397,934            433,078       cover their immediate cash needs related
 	Advances to Host Country Governments and Institutions                 129,494            113,123       to program implementation until they
 	Advances, Other                                                       225,036              2,968       submit expense reports to USAID and
 Total with the Public                                                  752,464            549,169       USAID records those expenses. Advances
 Total Other Assets                                                  $	837,859          $	645,388        to Host Country Governments and Insti-
                                                                                                         tutions represent amounts advanced by
                                                                                                         USAID missions to host country govern-
                                                                                                         ments and other in-country organiza-
                                                                                                         tions, such as educational institutions and
                                                                                                         voluntary organizations. Advances, Other
                                                                                                         consist primarily of amounts advanced for
                                                                                                         living quarters, travel, and home service.



                                                                                                                                                     44
                                                                USAID FY 2012 Agency Financial report | FINANCIAL SECTION                             91
NOTE 5. CASH AND OTHER MONETARY ASSETS
Cash and Other Monetary Assets as of September 30, 2012 and 2011 are as follows:		

                                                  Cash and Other Monetary Assets
                                                                        (In Thousands)
 Cash and Other Monetary Assets                                                                                         2012              2011
 	Imprest Fund-Headquarters                                                                                         $	–                $	5
 	   UE and Micro and Small Enterprise Fund Cash w/Fiscal Agent                                                     	–                           50
 	   Foreign Currencies                                                                                                 349,069           306,580
 Total Cash and Other Monetary Assets                                                                               $	349,069          $	306,635


USAID has imprest funds in various                      which USAID is liable for any shortages.       Foreign Currencies are related to Foreign
overseas locations. However, these funds                USAID has no imprest fund balance to           Currency Trust Funds that totaled $349
are provided by the Department of State                 report because the imprest funds come          million in FY 2012 and $307 million in
overseas U.S. Disbursing Officers to                    from State Department appropriations.          FY 2011. USAID does not have any non-
                                                                                                       entity cash or other monetary assets.


NOTE 6. Direct Loans and Loan Guarantees, NET
USAID operates the following loan and/or                Estimated losses from defaults on loan         generally required to be reestimated on an
loan guarantee programs:	                               guarantees resulting from obligations made     annual basis to adjust for changes in risk
                                                        prior to 1992 are reported as a liability.     and interest rate assumptions. Direct loans
•	 Direct Loan Program (Direct Loan)                                                                   are reported net of an allowance for this
                                                        The Credit Reform Act of 1990 prescribes       subsidy cost (allowance for subsidy). The
•	 Urban and Environmental Program (UE)
                                                        an alternative method of accounting for        subsidy costs associated with loan guaran-
•	 Micro and Small Enterprise                           direct loans and guarantees resulting from     tees are reported as loan guarantee liability.
   Development Program (MSED)                           obligations made after 1991. Subsidy cost,
                                                        which is the net present value of the cash     An analysis of loans receivable, loan guar-
•	 Israel Loan Guarantee Program                        flows (i.e. interest rates, interest supple-   antees, liability for loan guarantees, and the
   (Israel Loan)                                        ments, estimated defaults, fees, and other     nature and amounts of the subsidy costs
•	 Development Credit Authority                         cash flows) associated with direct loans       associated with the loans and loan guaran-
   Program (DCA)                                        and guarantees, is required by the Act to      tees are provided in the following sections.
                                                        be recognized as an expense in the year
•	 Egypt Loan Guarantee Program                         in which the direct loan or guarantee is       The following net loan receivable amounts
                                                        disbursed. Subsidy cost is calculated by       are not the same as the proceeds that
•	 Tunisia Loan Guarantee Program
                                                        agency program offices prior to obligation     USAID would expect to receive from selling
Direct loans resulting from obligations                 using a model prescribed by the Office of      its loans. Actual proceeds may be higher or
made prior to 1992 are reported net of                  Management and Budget (OMB). Subsidy           lower depending on the borrower and the
allowance for estimated uncollectible loans.            relating to existing loans and guarantees is   status of the loan.


                                                Summary of Loans Receivables, Net
                                                                        (In Thousands)
                                                                                                                 2012                   2011
 Net Direct Loans Obligated Prior to 1992 (Allowance for Loss Method)                                         $	2,414,336            $	2,953,161
 Net Direct Loans Obligated After 1991 (Present Value Method)                                                     237,142                232,992
 Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method)                                  122,098                206,228
 Total Loans Receivable, Net as reported on the Balance Sheet                                                 $	2,773,576            $	3,392,381



                                                                                                                                                      45
92                    USAID FY 2012 Agency Financial report | FINANCIAL SECTION
Direct Loans


                                                  Direct Loans
                                                      (In Thousands)
                                                  Loans                                                  Value of Assets
                                                Receivable              Interest    Allowance for       Related to Direct
Loan Programs                                     Gross                Receivable    Loan Losses           Loans, Net

Direct Loans Obligated Prior to 1992 (Allowance for Loss Method) as of September 30, 2012:
	   Direct Loans                                $	2,667,424            $	347,807      $	(600,894)         $	2,414,337
	MSED                                                   29                    26      	(55)               	–
	Total                                          $	2,667,453            $	347,833      $	(600,949)         $	2,414,337


Direct Loans Obligated Prior to 1992 (Allowance for Loss Method) as of September 30, 2011:
	   Direct Loans                                $	3,240,399            $	330,519      $	(617,757)         $	2,953,161
	MSED                                                   29                    11               (40)       	–
	Total                                          $	3,240,428            $	330,530      $	(617,797)         $	2,953,161

                                                  Loans                              Allowance for       Value of Assets
                                                Receivable              Interest     Subsidy Cost       Related to Direct
Loan Programs                                     Gross                Receivable   (Present Value)        Loans, Net

Direct Loans Obligated After 1991 as of September 30, 2012:
	   Direct Loans                                $	771,129              $	14,802       $	(622,091)         $	163,840
	   UE - Subrogated Claims                           49,208                16,249            8,029            73,486
	MSED                                                  150                    24             (357)              (183)
	Total                                          $	820,487              $	31,075       $	(614,419)         $	237,143


Direct Loans Obligated After 1991 as of September 30, 2011:
	   Direct Loans                                $	720,734              $	14,251       $	(567,953)         $	167,032
	   UE - Subrogated Claims                           34,990                12,203         18,950              66,143
	MSED                                                  150                  (150)            (183)        	(183)
	Total                                          $	755,874              $	26,304       $	(549,186)         $	232,992



                              Total Amount of Direct Loans Disbursed
                                                      (In Thousands)
Direct Loan Programs                                                                         2012               2011
	   Direct Loans                                                                         $	3,438,553         $	3,961,133
	   UE - Subrogated Claims                                                                     49,208             34,990
	MSED                                                                                             179               179
	Total                                                                                   $	3,487,940         $	3,996,302




                                                                                                                           46
                                              USAID FY 2012 Agency Financial report | FINANCIAL SECTION                    93
                         Schedule for Reconciling Subsidy Cost Allowance Balances
                                           (Post-1991 Direct Loans)
                                                                       (In Thousands)
                                                                           2012                                                2011
                                                       Direct      UE - Sub.                               Direct      UE - Sub.
                                                       Loan         Claims       MSED        Total         Loan         Claims      MSED         Total
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Subsidy Cost Allowance       $	567,953    $	(18,950)    $	183     $	549,186      $	798,927    $	(12,012)   $	183       $	787,098
Add: Subsidy Expense for Direct Loans Disbursed
During the Reporting Years by Component:
	    (A) Interest Rate Differential Costs             	–           	–            	–        	–             	–           	–           	–          	–
	    (B) Default Costs (Net of Recoveries)            	–           	–            	–        	–             	–           	–           	–          	–
	    (C) Fees and Other Collections                   	–           	–            	–        	–             	–           	–           	–          	–
	    (D) Other Subsidy Costs                          	–           	–            	–        	–             	–           	–           	–          	–
Total of the Above Subsidy Expense Components         	–           	–            	–        	–             	–           	–           	–          	–
Adjustments:
	    (A) Loan Modifications                           	–           	–            	–        	–             	–           	–           	–          	–
	    (B) Fees Received                                	–           	–            	–        	–             	–           	–           	–          	–
	    (C) Foreclosed Property Acquired                 	–           	–            	–        	–             	–           	–           	–          	–
	    (D) Loans Written Off                            	–           	–            	–        	–             	–           	–           	–          	–
	    (E) Subsidy Allowance Amortization                  (3,790)   	–            	–           (3,790)       (21,896)   	–           	–           (21,896)
	    (F) Other                                           57,928      10,921         174      69,023        (209,078)     (6,938)    	–          (216,016)
Ending Balance of the Subsidy Cost Allowance Before   $	622,091    $	(8,029)     $	357     $	614,419      $	567,953    $	(18,950)   $	183       $	549,186
Reestimates
Add or Subtract Subsidy Reestimates by Component:
	    (A) Interest Rate Reestimate                     	–           	–            	–        	–             	–           	–           	–          	–
	    (B) Technical/Default Reestimate                 	–           	–            	–        	–             	–           	–           	–          	–
Total of the Above Reestimate Components              	–           	–            	–        	–             	–           	–           	–          	–
Ending Balance of the Subsidy Cost Allowance          $	622,091    $	(8,029)     $	357     $	614,419      $	567,953    $	(18,950)   $	183       $	549,186




                                                      Defaulted Guaranteed Loans
                                                                       (In Thousands)
                                                    Defaulted                                                                Value of Assets Related
                                                   Guaranteed                                           Allowance                 to Defaulted
                                                 Loans Receivable,               Interest               For Loan               Guaranteed Loans
Loan Guarantee Programs                               Gross                     Receivable               Losses                 Receivable, Net

Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): 2012
UE                                                 $	132,314                    $	93,523                $	(103,738)                 $	122,099
Total                                              $	132,314                    $	93,523                $	(103,738)                 $	122,099


Defaulted Guaranteed Loans from Pre-1992 Guarantees (Allowance for Loss Method): 2011
UE                                                 $	222,020                    $	88,051                $	(103,843)                 $	206,228
Total                                              $	222,020                    $	88,051                $	(103,843)                 $	206,228




                                                                                                                                                     47
94                       USAID FY 2012 Agency Financial report | FINANCIAL SECTION
Defaulted Guaranteed Loans from Post-1991 Guarantees

In 2012, the UE Program experienced $3.8 million in defaults on payments.

In 2011, the UE Program experienced $3.8 million in defaults on payments.


Guaranteed Loans Outstanding

                                       Guaranteed Loans Outstanding
                                                         (In Thousands)
                                                                              Outstanding              Amount of
                                                                                Principal,             Outstanding
                                                                            Guaranteed Loans,           Principal
 Loan Guarantee Programs                                                       Face Value              Guaranteed

 Guaranteed Loans Outstanding (2012):
 UE                                                                            $	734,890               $	734,890
 MSED                                                                                14,760                     7,380
 Israel                                                                          11,280,648              11,280,648
 DCA                                                                               266,156                    133,078
 Egypt                                                                            1,250,000                  1,250,000
 Tunisia                                                                           485,000                    485,000
 Total                                                                         $	14,031,454            $	13,890,996


 Guaranteed Loans Outstanding (2011):
 UE                                                                            $	817,179               $	817,179
 MSED                                                                                14,760                     7,380
 Israel                                                                          11,615,776              11,615,776
 DCA                                                                               303,495                    151,748
 Egypt                                                                            1,250,000                  1,250,000
 Total                                                                         $	14,001,210            $	13,842,083


 New Guaranteed Loans Disbursed (2012):
 DCA                                                                           $	76                    $	38
 Tunisia                                                                           485,000                    485,000
 Total                                                                         $	485,076               $	485,038


 New Guaranteed Loans Disbursed (2011):
 DCA                                                                           $	111,894               $	55,947
 Total                                                                         $	111,894               $	55,947




                                                                                                                         48
                                                 USAID FY 2012 Agency Financial report | FINANCIAL SECTION               95
                                       Liability for Loan Guarantees
                                                        (In Thousands)
                                                     Liabilities for Losses        Liabilities for
                                                         on Pre-1992             Loan Guarantees              Total
                                                         Guarantees,               for Post-1991            Liabilities
                                                      Estimated Future              Guarantees,             for Loan
           Loan Guarantee Programs                      Default Claims            Present Value            Guarantees

Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2012:
UE                                                       $	28,528                  $	155,921              $	184,449
MSED                                                     	–                               (661)                  (661)
Israel                                                   	–                          1,297,606              1,297,606
DCA                                                      	–                            62,233                  62,233
Egypt                                                    	–                           438,855                438,855
Tunisia                                                  	–                            29,876                  29,876
Total                                                    $	28,528                  $	1,983,830            $	2,012,358



Liability for Loan Guarantees (Estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2011:
UE                                                       $	54,977                  $	162,947              $	217,924
MSED                                                     	–                               (661)                  (661)
Israel                                                   	–                          1,314,845              1,314,845
DCA                                                      	–                            30,206                  30,206
Egypt                                                    	–                           131,881                131,881
Total                                                    $	54,977                  $	1,639,218            $	1,694,195




Subsidy Expense for Loan Guarantees by Program and Component

             Subsidy Expense for Loan Guarantees by Program and Component
                                                        (In Thousands)
                                   Interest                              Fees and Other
 Loan Guarantee Programs         Supplements          Defaults             Collections            Other             Total

Subsidy Expense for New Loan Guarantees (2012):
DCA                               $	–                $	6,396               $	–-                  $	–          $	6,396
Tunisia                           	–                    29,876             	–                    	–                  29,876
Total                             $	–                $	36,272              $	–                   $	–          $	36,272



Subsidy Expense for New Loan Guarantees (2011):
DCA                               $	–                $	7,189               $	–                   $	–          $	7,189
Total                             $	–                $	7,189               $	–                   $	–          $	7,189

                                                                                                             (continued on next page)




96              USAID FY 2012 Agency Financial report | FINANCIAL SECTION
         Subsidy Expense for Loan Guarantees by Program and Component (continued)
                                                     (In Thousands)
                                                      Total              Interest Rate        Technical         Total
Loan Guarantee Programs                            Modifications          Reestimates        Reestimates     Reestimates
Modifications and Reestimates (2012):
	UE                                                 $	–                   $	–                $	(4,907)        $	(4,907)
	Israel                                             	–                    	–                    (99,363)             (99,363)
	DCA                                                	–                    	–                       (380)               (380)
	Egypt                                              	–                    	–                    301,455          301,455
	Tunisia                                            	–                    	–                 	–               	–
	Total                                              $	–                   $	–                $	196,805        $	196,805


Modifications and Reestimates (2011):
	UE                                                 $	–                   $	–                $	230            $	230
	Israel                                             	–                    	–                      5,769               5,769
	Egypt                                              	–                    	–                 	–               	–
	Total                                              $	–                   $	–                $	5,999          $	5,999




                               Total Loan Guarantee Subsidy Expense
                                                     (In Thousands)
Loan Guarantee Programs                                                                         2012             2011
	UE                                                                                          $	(4,907)       $	230
	MSED                                                                                        	–              	–
	Israel                                                                                        (99,363)              5,769
	DCA                                                                                             6,016       	7,189
	Egypt                                                                                         301,455       	–
	Tunisia                                                                                        29,876       	–
	Total                                                                                       $	233,077       $	13,188




Subsidy Rates for Loan Guarantees by Program and Component:

      Budget Subsidy Rates for Loan Guarantees for the Current Year’s Cohorts
                                                       (Percent)
                                                                       Fees and
                                  Interest                              Other
                                Supplements                           Collections
Loan Guarantee Programs             (%)         Defaults (%)              (%)        Other (%)             Total (%)

 	DCA                                   –           5.01%                  (0.89)%       –                   4.12%
 	Tunisia                               –           6.16%                   –            –                   6.16%




                                                                                                                                49
                                              USAID FY 2012 Agency Financial report | FINANCIAL SECTION                         97
                      Schedule for Reconciling Loan Guarantee Liability Balances
                                                                       (In Thousands)
                                                                     2012
            (Post-1991 Loan Guarantees)                           DCA        MSED           UE         Israel        Egypt       Tunisia        Total
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Loan Guarantee Liability                $	30,206    $	(661)     $	162,947    $	1,314,845 $	131,881     $	–           $	1,639,218
Add: Subsidy Expense for Guaranteed Loans Disbursed During the
	 Reporting Years by Component:
	 (A) Interest Supplement Costs                                  	–          	–          	–           	–            	–          	–            	–
	 (B) Default Costs (Net of Recoveries)                           6,396      	–          	–           	–            	–          29,876        36,272
	 (C) Fees and Other Collections                                 	–          	–          	–           	–            	–          	–            	–
	 (D) Other Subsidy Costs                                        	–          	–          	–           	–            	–          	–            	–
Total of the Above Subsidy Expense Components                    $	6,396     $	–         $	–          $	– $	–                   $	29,876      $	36,272
Adjustments:                                                                                                                                  	
	 (A) Loan Guarantee Modifications                               	–          	–          	–           	–            	–          	–            	–
	 (B) Fees Received                                               1,306      	–            1,045      	–            	–          	–                 2,351
	 (C) Interest Supplements Paid                                  	–          	–          	–           	–            	–          	–            	–
	 (D) Foreclosed Property and Loans Acquired                     	–          	–          	–           	–            	–          	–            	–
	 (E) Claim Payments to Lenders                                  (6,575)      (11)       (13,467)     (662,889)     (69,448)    	–              (752,390)
	 (F) Interest Accumulation on the Liability Balance              1,998      	–            3,307        82,124        5,519     	–                92,948
	 (G) Other                                                      29,282        11          6,996       662,889       69,448     	–               768,626
Ending Balance of the Loan Guarantee Liability Before Reestimates 62,613         (661)    160,828      1,396,969     137,400       29,876      1,787,025
Add or Subtract Subsidy Reestimates by Component:
	 (A) Interest Rate Reestimate                                    	–         	–          	–           	– 	–                     	–            	–
	 (B) Technical/Default Reestimate                                  (380)    	–          (4,907)      (99,363) 301,455          	–            196,805
Total of the Above Reestimate Components                             (380)   	–             (4,907)      (99,363)    301,455    	–               196,805
Ending Balance of the Loan Guarantee Liability                   $	62,233    $	(661)     $	155,921    $	1,297,606 $	438,855     $	29,876      $	1,983,830

                                                                     2011
                                                                  DCA        MSED           UE         Israel        Egypt        Total
Beginning Balance, Changes, and Ending Balance
Beginning Balance of the Loan Guarantee Liability                $	15,035    $	(649)     $	137,074    $	1,856,214 $	193,048     $	2,200,722
Add: Subsidy Expense for Guaranteed Loans Disbursed During the
	 Reporting Years by Component:
	 (A) Interest Supplement Costs                                  	–          	–          	–           	–            	–          	–
	 (B) Default Costs (Net of Recoveries)                          	–          	–          	–           	–            	–          	–
	 (C) Fees and Other Collections                                 	–          	–          	–           	–            	–          	–
	 (D) Other Subsidy Costs                                         7,189      	–          	–           	–            	–           7,189
Total of the Above Subsidy Expense Components                       7,189    	–          	–           	– 	–                          7,189
Adjustments:                                                                                                                    	
	 (A) Loan Guarantee Modifications                               	–          	–          	–           	–            	–          	–
	 (B) Fees Received                                                1,164     	–            1,153      	–            	–               2,317
	 (C) Interest Supplements Paid                                  	–          	–          	–           	–            	–          	–
	 (D) Foreclosed Property and Loans Acquired                     	–          	–          	–           	–            	–          	–
	 (E) Claim Payments to Lenders                                  (27,566)    (1,297)     (30,463)     (135,134)     	–            (194,460)
	 (F) Interest Accumulation on the Liability Balance               1,464     	–            3,706       115,750       8,282         129,202
	 (G) Other                                                       29,892      1,285       65,993       135,135          (1)        232,304
Ending Balance of the Loan Guarantee Liability Before Reestimates 27,178         (661)    177,463      1,971,965     201,329     2,377,274
Add or Subtract Subsidy Reestimates by Component:
	 (A) Interest Rate Reestimate                                    	–         	–          	–           	– 	–                     	–
	 (B) Technical/Default Reestimate                                 3,028     	–          (14,516)     (657,120) (69,448)        (738,056)
Total of the Above Reestimate Components                            3,028    	–            (14,516)     (657,120)    (69,448)     (738,056)
Ending Balance of the Loan Guarantee Liability                   $	30,206    $	(661)     $	162,947    $	1,314,845 $	131,881     $	1,639,218


                                                                                                                                                      50
98                     USAID FY 2012 Agency Financial report | FINANCIAL SECTION
                                                      Administrative Expense
                                                                  (In Thousands)
 Loan Programs                                                                                            2012                 2011
 	DCA                                                                                                   $	13,890            $	18,262
 	Total                                                                                                 $	13,890            $	18,262



Other Information                                     Programs Appropriations Act, owing         3.	Reestimate amounts are subject to
                                                      $403.5 million that is more than              approval by the Office of Management
1.	Allowance for Loss for Liquidating                 one year delinquent. Outstanding              and Budget (OMB), and any adjust-
   account (pre-Credit Reform Act)                    direct loans receivable for countries         ments, if necessary, will be made in
   receivables have been calculated in                in violation of Section 620q totaled          FY 2013.
   accordance with OMB guidance using                 $11.1 million. Outstanding direct
   a present value method which assigns               loans receivable for countries in
   risk ratings to receivables based upon             violation of the Brooke Amendment
   the country of debtor. Six countries               totaled $403.5 million.
   are in violation of Section 620q of the
   Foreign Assistance Act (FAA), owing              2.	The MSED Liquidating Account
   $11.1 million that is more than six                 general ledger has a loan receivable
   months delinquent. Seven countries are              balance of $29 thousand. This includes
   in violation of the Brooke-Alexander                a loan pending closure. This loan
   Amendment to the Foreign Opera-                     is being carried at 100% bad debt
   tions Export Financing and Related                  allowance.




NOTE 7. INVENTORY AND RELATED PROPERTY, Net
USAID’s Inventory and Related Property, Net is comprised of Operating Materials and Supplies. Operating Materials and Supplies as
of September 30, 2012 and 2011 are as follows:

                                                  Inventory and Related Property
                                                                  (In Thousands)
                                                                                                          2012                 2011
 Items Held for Use
 	Office Supplies                                                                                       $	5,260             $	6,046
 Items Held in Reserve for Future Use
 	   Disaster Assistance Materials and Supplies                                                            11,139               11,620
 	   Birth Control Supplies                                                                                13,208               26,013
 Total Inventory and Related Property                                                                   $	29,607            $	43,679



Operating Materials and Supplies are                of business and not held for sale. The       unserviceable, and no restrictions on their
considered tangible properties that                 valuation is based on historical acquisi-    use. Items costing less than $25,000 are
are consumed in the normal course                   tion costs. There are no items obsolete or   expensed as incurred.




                                                                                                                                         51
                                                          USAID FY 2012 Agency Financial report | FINANCIAL SECTION                       99
NOTE 8. GENERAL PROPERTY, PLANT AND EQUIPMENT, NET
The components of Property, Plant and Equipment (PP&E) as of September 30, 2012 and 2011 are as follows:

                                        General Property, Plant and Equipment, Net
                                                                  (In Thousands)
                                                                                                             Net Book         Net Book
                                                                                         Accumulated          Value            Value
                                                        Useful Life           Cost       Depreciation          2012             2011
 Classes of Fixed Assets:
 	Equipment                                              3 to 5 years    $	87,704       $	(68,236)         $	19,468         $	10,905
 	    Buildings, Improvements, and Renovations            20 years            68,840        (43,226)           25,614            23,850
 	Land and Land Rights                                      N/A                7,203    	N/A                    7,203             7,203
 	Assets Under Capital Lease (Note 9)                                    	–             	–                 	–               	–
 	Construction in Progress                                  N/A          	–             	–                 	–               	–
 	Internal Use Software                                  3 to 5 years        110,674        (86,599)           24,075            32,144
 Total PP&E                                                              $	274,421      $	(198,061)        $	76,360         $	74,102




The threshold for capitalizing assets is         USAID PP&E includes assets located in          buildings and residences at foreign
$25,000 except for Internal Use Software         Washington, D.C. offices and overseas          missions, including the land on which
which is capitalized and amortized at            field missions.                                these structures reside. These structures
$300,000. Assets are depreciated using the                                                      are used and maintained by the field
straight line depreciation method. USAID         Equipment consists primarily of electric       missions. USAID does not separately
uses the mid-year convention for assets          generators, Automatic Data Processing          report the cost of the building and the
purchased prior to FY 2003 and the mid-          (ADP) hardware, vehicles and copiers           land on which the building resides.
quarter convention for assets purchased          located at the overseas field missions. Note
during FY 2003 and beyond. Depreciable           9 discusses USAID leases.                      Land consists of property owned by
assets are assumed to have no remaining                                                         USAID in foreign countries. Land is
                                                 Buildings, Improvements, and Renova-           generally procured with the intent of
salvage value. There are currently no
                                                 tions, in addition to Land and Land            constructing buildings.
restrictions on PP&E assets.
                                                 Rights include USAID owned office




                                                                                                                                          52
100                    USAID FY 2012 Agency Financial report | FINANCIAL SECTION
NOTE 9. LEASES
As of September 30, 2012 and 2011 Leases consisted of the following:

                                                             Leases
                                                            (In Thousands)
 Entity as Lessee
 	   Capital Leases:                                                                                2012             2011
 	Summary of Assets Under Capital Lease:
 		Buildings                                                                                  $	–                 $	900
 		Accumulated Depreciation                                                                   	–                    (900)
 	Net Assets under Capital Leases                                                             $	–                 $	–

 Description of Lease(s) Arrangements. Capital leases consist of rental agreements entered into by missions for ware-
 houses, parking lots, residential space, and office buildings. These leases are one year or more in duration.
 	   Operating Leases:
 	   Future Payments Due:                                                                         2012
 	   Fiscal Year                                                                              Future Costs
        2013                                                                                   $	   88,180
        2014                                                                                        79,213
        2015                                                                                        73,494
        2016                                                                                        25,725
        2017                                                                                        22,454
        After 5 Years                                                                               43,672
 	Lease Liabilities Covered by Budgetary Resources                                             $	 332,738


Operating lease payments total $333 million in future lease payments of which $166 million is for the USAID headquarters in
Washington, D.C. The current lease agreements are for approximately 802,417 sq. feet and with expiration dates of FY 2013,
FY 2015, FY 2016, FY 2017 and FY 2020. The lessor, General Services Administration (GSA), charges commercial rates for
USAID’s occupancy.




                                                                                                                              53
                                                     USAID FY 2012 Agency Financial report | FINANCIAL SECTION                101
NOTE 10. Liabilities Covered and Not
Covered by Budgetary ReSources

USAID records liabilities for amounts                   Liabilities not covered by budgetary         for Loan Guarantees is in the pre-Credit
that are likely to be paid as the direct                resources include accrued unfunded           Reform Urban and Environmental (UE)
result of events that have already occurred.            annual leave and separation pay. Although    Housing Loan Guarantee liquidating
USAID considers the Intragovernmental                   future appropriations to fund these          fund. As such, it represents the estimated
accounts payable as liabilities covered                 liabilities are probable and anticipated,    liability to lenders for future loan
under budgetary resources. These accounts               Congressional action is needed before        guarantee defaults in that program.
payable are those payable to other federal              budgetary resources can be provided.
agencies and consist mainly of unliquidated             Accrued unfunded annual leave, workers’      As of September 30, 2012 and 2011
obligation balances related to interagency              compensation benefits, and separation pay    liabilities covered and not covered by
agreements between USAID and other                      represent future liabilities not currently   budgetary resources were as follows:
federal agencies. The accounts payable with             funded by budgetary resources, but will
the public represent liabilities to other non-          be funded as it becomes due with future
federal entities.                                       resources. The Contingent Liabilities


                       Liabilities Covered and not covered by Budgetary Resources
                                                                           (In Thousands)
                                                                                                           2012                   2011
 Liabilities Covered by Budgetary Resources:
 Intragovernmental:
 	Accounts Payable                                                                                     $	121,730              $	15,597
 	 Debt (Note 11)                                                                                           478,304                 478,380
 	Liability for Capital Transfers to the General Fund of the Treasury (Note 11)                           2,613,998               3,198,706
 	Other Liabilities (Note 12)                                                                               660,533                 701,303
 Total Intragovernmental                                                                                  3,874,565               4,393,986

 Accounts Payable                                                                                         1,856,966               1,722,872
 Disbursements in Transit                                                                                    10,178                  11,286
 Total Accounts Payable with Public                                                                       1,867,144               1,734,158
 Loan Guarantee Liability (Note 6)                                                                        1,983,830               1,639,218
 Other Liabilities with Public                                                                              501,747                 459,909
 Total Liabilities Covered by Budgetary Resources                                                      $	8,227,286             $	 8,227,271

 Liabilities Not Covered by Budgetary Resources:
 Intragovernmental:
     IPAC Suspense                                                                                     $	(7,108)              $	4,968
     Unfunded FECA Liability (Note 13)                                                                    8,228                   8,073
     Other Unfunded Employment Related Liability                                                            120                     107
     Other Liabilities (Note 12)                                                                         95,088                 730,974
 Total Intragovernmental (Note 12)                                                                     $	96,328               $	744,122
 Accrued Annual Leave                                                                                    43,829                  35,948
 FSN Separation Pay Liability                                                                          	–                     	–
 Total Accrued Unfunded Annual Leave and Separation Pay                                                      43,829                 35,948
 Future Workers’ Compensation Benefits (Note 13)                                                             23,582                 22,175
 Debt - Contingent Liabilities for Loan Guarantees (Note 6)                                                  28,528                 54,977
 Total Liabilities Not Covered by Budgetary Resources                                                       192,267                857,222
 Total Liabilities                                                                                     $	8,419,553            $	9,084,493



                                                                                                                                              54
102                    USAID FY 2012 Agency Financial report | FINANCIAL SECTION
NOTE 11. DEBT
USAID Intragovernmental Debt as of September 30, 2012 and September 30, 2011 consisted of the following borrowings from
Treasury for post-1991 loan programs, which is classified as other debt:

                                                Intragovernmental Debt
                                                             (In Thousands)
                                                       2011                                 2011                  2012
                                                     Beginning           Net               Ending       Net      Ending
                Debt Due to Treasury                  Balance         Borrowing            Balance   Borrowing   Balance
 Direct Loans                                         $	478,195        $	–               $	478,195   $	–         $	478,195
 DCA                                                         85        	100                    185        (76)        109
 Total Treasury Debt                                  $	478,280        $	100             $	478,380   $	(76)      $	478,304



Pursuant to the Federal Credit Reform Act      In FY 2012, no interest was accrued for
of 1990, agencies with credit programs have    DCA and Direct Loans.
permanent indefinite authority to borrow
funds from the Treasury. These funds are       The above disclosed debt is principal
used to disburse new direct loans to the       payable to Treasury, which represents
public and, in certain situations, to cover    financing account borrowings from
credit reform program costs. Liquidating       Treasury under the Federal Credit Reform
(pre-1992) accounts have permanent indefi-     Act and net liquidating account equity
nite borrowing authority to be used to cover   in the amount of $2.6 billion, which
program costs when they exceed account         under the Act is required to be recorded
resources.                                     as Liability for Capital Transfers to the
                                               General Fund of the Treasury. All debt
                                               shown is intragovernmental debt.




                                                                                                                              55
                                                     USAID FY 2012 Agency Financial report | FINANCIAL SECTION               103
NOTE 12. OTHER LIABILITIES
As of September 30, 2012 and 2011 Other Liabilities consisted of the following:

                                      Other Liabilities
                                            (In Thousands)
                                                                 2012            2011
 Intragovernmental
 	IPAC Suspense                                               $	(7,108)     $	4,968
 	    Unfunded FECA Liability                                       8,228          8,073
 	Custodial Liability                                               8,090         12,543
 	Employer Contributions & Payroll Taxes Payable                    4,765         10,070
 	Other Unfunded Employment Related Liability                        120            107
 	Liability for Advances and Prepayments                          647,678        678,690
 	Other Liabilities                                                95,088        730,974
 Total Intragovernmental                                      $	756,861     $	1,445,425

 Accrued Funded Payroll and Leave                                  31,325         39,753
 Accrued Unfunded Annual Leave and Separation Pay (Note 10)        43,829         35,948
 Advances From Others                                               2,697          2,688
 Deferred Credits                                                   1,330         21,388
 Foreign Currency Trust Fund                                      350,210        307,726
 Capital Lease Liability (Note 9)                             	–            	–
 Other Liabilities                                                116,185         88,354
 Total Liabilities With the Public                            $	545,576     $	495,857
 Total Other Liabilities                                      $	1,302,437   $	1,941,282


Intragovernmental Liabilities represent amounts due to other federal agencies.
All remaining Other Liabilities are liabilities to non-federal entities.




                                                                                           56
104                        USAID FY 2012 Agency Financial report | FINANCIAL SECTION
NOTE 13. FEDERAL EMPLOYEES AND VETERAN’S BENEFITS
The provision for workers’ compensation benefits payable, as of September 30, 2012 and 2011 are indicated in the table below.

     Accrued Unfunded Workers’ Compensation Benefits
                                             (In Thousands)
                                                                   2012             2011
 Liabilities Not Covered by Budgetary Resources
 	   Future Workers’ Compensation Benefits                      $	23,582         $	22,175
     Unfunded FECA Liability                                          8,228             8,073
 	Total Accrued Unfunded Workers’ Compensation Benefits         $	31,810         $	30,248


The Federal Employees’ Compensation                  for all Federal Government agencies and       The actuarial estimate for the FECA
Act (FECA) provides income and medical               seeks reimbursement two fiscal years later    unfunded liability is determined by
cost protection to covered federal civilian          from the federal agencies employing the       the DOL using a method that utilizes
employees injured on the job and to                  claimants.                                    historical benefit payment patterns.
beneficiaries of employees whose deaths                                                            The projected annual benefit payments
are attributable to job-related injury or            For FY 2012, USAID’s total FECA               are discounted to present value using
disease. The FECA program is adminis-                liability was $31.8 million, comprised of     economic assumption for 10-year Treasury
tered by the Department of Labor (DOL).              unpaid FECA billings for $8.2 million         notes and bonds and the amount is
DOL initially pays valid FECA claims                 and estimated future FECA costs of            further adjusted for inflation.
                                                     $23.6 million.


NOTE 14. COMMITMENTS AND CONTINGENCIES
USAID is involved in certain claims, suits,          •	 The third case is a contract claim that    District Court. The General Counsel
and complaints that have been filed or are              USAID wrongfully withheld payment          Office plans to defend the Agency’s
pending. These matters are in the ordinary              for invoices submitted by a contractor     actions if a case is filed in court.
course of the Agency’s operations and are               under the “Hurricane Mitch” host-
not expected to have a material adverse                 country relief efforts.                    During FY 2012 there was l dismissal and
effect on the Agency’s financial operations.                                                       2 settlements.
                                                     •	 The fourth case is a companion to a
As of September 30, 2012 a total of four                prior case, in which a contractor seeks    •	 The dismissal occurred in the second
cases were pending, along with two claims               compensation for efforts and expenses         quarter of FY 2012. The case was
that have yet to be filed in any court.                 it claims to have incurred under a            based on a claim for damages suffered
                                                        terminated host country contract with         allegedly as a result of USAID-caused
•	 The first case arises from a fatal auto-             an estimated loss of $1.8 million.            delay in relation to the delivery and
   mobile collision. The consolidated                                                                 off-loading of grain. The Civilian
   action asserts negligence against United          The two claims that have not been filed in       Board of Contract Appeals ruled in
   States (AID and State). The court has             any court were submitted on December             USAID’s favor and dismissed the case
   dismissed the tort claims and denied              2, 2011 under the Federal Tort Claims            on January 11, 2012.
   reconsideration. The damages sought               Act. Both claims allege negligence on
   are $48 million.                                  the part of the Agency. The first claim       •	 A settlement was reached in the
                                                     seeks payment totaling $20 million               third quarter on June 12, 2012.
•	 The second case is a basic claim                  and the second seeks payment totaling            Pursuant to the agreement the Agency
   that USAID has willfully violated                 $10 million. The Agency has 6 months             paid $511,000 to settle all claims
   the Fair Labor Standards Act by                   to respond to the claim; if the response is      against USAID.
   failing to compensate employees for               unfavorable then the claims may become
   overtime worked. The estimated loss               the subject of litigation before a U.S.
   is $10 million.


                                                                                                                                          57
                                                              USAID FY 2012 Agency Financial report | FINANCIAL SECTION                   105
•	 A settlement was reached in the fourth             USAID’s normal course of business              none of which are contingent. It is not
   quarter on September 12, 2012.                     involves the execution of project agree-       USAID’s normal business practice to enter
   Pursuant to the agreement the Agency               ments with foreign governments that are a      into other types of agreements or treaties
   paid $1,250,000 to settle all claims               type of treaty. All of these agreements give   with foreign governments that create
   against USAID.                                     rise to obligations that are fully reported    contingent liabilities.
                                                      on USAID’s financial statements, and



NOTE 15. Recovery Act Funds

                                                                                                     In February, 2009 Congress passed the
      Recovery Act Assets, Liabilities and Net Position
                                                                                                     American Recovery and Reinvestment
                                              (In Thousands)
                                                                                                     Act of 2009 with the goal to create jobs,
                                                               Recovery Act Assets, Liabilities      spur economic activity and invest in long
                                                                     and Net Position                term economic growth. This $787 billion
                                                                  2012                2011           Recovery plan includes federal tax cuts
Fund Balance With Treasury                                 $	8                     $	976
                                                                                                     and incentives, an expansion of unem-
                                                                                                     ployment benefits, and other spending on
Total Assets                                                             8                 976
                                                                                                     social entitlement programs. In addition,
                                                                                                     federal agencies are using Recovery funds
Accounts Payable                                           	–                              853
                                                                                                     to award contracts, grants, and loans
Total Liabilities                                          	–                              853
                                                                                                     around the country.
Unexpended Appropriations                                   8                       123
                                                                                                     USAID received $38 million for informa-
Cumulative Results of Operations                           	–                      	–
                                                                                                     tion technology security and upgrades to
Total Net Position                                          8                       123
                                                                                                     support mission-critical operations. Due
Total Liabilities and Net Position                         $	8                     $	976             to Agency IT priorities and toward maxi-
                                                                                                     mizing job creation with the Recovery
                                                                                                     Act funds, USAID determined that
                                                               Status of Recovery Act Funds
                                                                                                     the funding should be dedicated to the
Total Budgetary Resources                                  $	8                     $	8               Global Acquisition and Assistance System
                                                                                                     (GLAAS) project. There is one fund in
Obligations Incurred                                       	–                      	–
                                                                                                     association with the Recovery Act Funds.
Unobligated Balance                                         8                       8
Total Status of Budgetary Resources                        $	8                     $	8

Total, Unpaid Obligated Balance, Net, End of Period        	–                              968
Net Outlays                                                $	968                   $	14,886




                                                                                                                                            58
106                    USAID FY 2012 Agency Financial report | FINANCIAL SECTION
     NOTE 16. INTRAGOVERNMENTAL COSTS
     AND EARNED REVENUE

     The Consolidated Statement of Net Cost               The format of the Consolidated Statement           Responsibility Segments are defined in
     reports the Agency’s gross costs less earned         of Net Cost is consistent with OMB                 Note 17.
     revenues to arrive at net cost of opera-             Circular A-136 guidance.
     tions by Objective and Program Area, as                                                                 Intragovernmental costs and earned
     of September 30, 2012. These objectives              Note 16 shows the value of transactions            revenue sources relate to transactions
     are consistent with the State/USAID’s                between USAID and other federal entities           between USAID and other federal entities.
     Strategic Planning Framework.                        as well as non-federal entities. These are         Public costs and exchange revenues relate
                                                          also categorized by Objectives, Program            to transactions between USAID and non-
                                                          Areas and Responsibility Segments.                 federal entities.


                                         INTRAGOVERNMENTAL COSTS AND EARNED REVENUE
                                                  by Responsibility Segment
                                                        For the Years Ended September 30, 2011 and 2010
                                                                          (In Thousands)
                                                                                                                    Latin
                                                                                  Europe                           America
                                                                                    &     Global                      &        Middle    2012           2011
Objective                    Africa      Asia     OAPA        DCHA       EGAT     Eurasia Health          IDEA    Caribbean     East     Total          Total

Peace and Security
  Intragovernmental Costs $	2,102 $	4,332 $	4,324 $	8,362 $	3,669 $	4,278 $	– $	–                                 $	4,945     $	3,457 $	35,469 $	37,827
  Public Costs              62,672  40,895  180,285 135,719 4,241   68,696 	– 	  –                                 129,798      10,065  632,371  903,946
     Total Program Costs    64,774  45,227  184,609 144,081 7,910   72,974 	 – 	 –                                134,743 13,522 667,840 941,773
  Intragovernmental         	(248) 	(461) 	(436) 	(673) 	(82) 	(504) 	– 	–                                        	(583) 	(33) 	(3,020) 	(3,414)
     Earned Revenue
  Public Earned Revenue     	(9) 	(16) 	(15) 	(23) 	(3) 	(18) 	– 	–                                               	(20) 	(1) 	(105) 	(1,315)
     Total Earned Revenue 	(257) 	(477) 	(451) 	(696) 	(85) 	(522) 	– 	–                                          	(603) 	(34) 	(3,125) 	(4,729)
Net Program Costs             64,517     44,750    184,158    143,385     7,825    72,452 	         – 	       –   134,140 13,488 664,715 937,044

Governing Justly and Democratically
  Intragovernmental Costs    9,444        9,342      38,997      5,160    3,062      9,263 	– 	–                      9,521 9,262     94,051    71,985
  Public Costs                204,919   137,479   1,476,411     75,915    5,885    172,351 	 – 175                        378,164
                                                                                                                    160,990        2,612,289 1,772,220
     Total Program Costs      214,363   146,821   1,515,408     81,075    8,947    181,614 	–  175                170,511 387,426  2,706,340 1,844,205
  Intragovernmental         	(904) 	(983) 	(3,010) 	(860) 	(74) 	(1,000) 	– 	–                                    	(857) 	(1,056) 	(8,744) 	(6,773)
     Earned Revenue
  Public Earned Revenue     	(31) 	(34) 	(104) 	(19) 	(3) 	(34) 	– 	–                                             	(47) 	(76) 	(348) 	(2,606)
     Total Earned Revenue 	(935) 	(1,017) 	(3,114) 	(879) 	(77) 	(1,034) 	– 	–                                    	(904) 	(1,132) 	(9,092) 	(9,379)
Net Program Costs            213,428    145,804   1,512,294    80,196     8,870   180,580 	         –      175     169,607     386,294   2,697,248      1,834,826

Investing in People                                                                                                                            	
  Intragovernmental Costs      99,799    20,864       9,047      3,384    6,562      7,481     33,523   	–           12,089  12,410    205,159     184,192
  Public Costs                678,017   161,503     294,245     69,895   65,545     70,214    964,697       139    118,722  349,642  2,772,619   3,082,252
     Total Program Costs      777,816   182,367     303,292     73,279   72,107     77,695    998,220       139    130,811  362,052  2,977,778   3,266,444
  Intragovernmental         	(11,136) 	(2,602) 	(76,743) 	(370) 	(3,776) 	(867) 	(513,129) 	–                     	(1,240) 	(1,338) 	(611,201) 	(192,051)
     Earned Revenue
  Public Earned Revenue     	(384) 	(90) 	(325) 	(13) 	(6,906) 	(20) 	(125) 	–                                    	(43) 	(46) 	(7,952) 	(11,310)
     Total Earned Revenue 	(11,520) 	(2,692) 	(77,068) 	(383) 	(10,682) 	(887) 	(513,254) 	–                      	(1,283) 	(1,384) 	(619,153) 	(203,361)
Net Program Costs            766,296    179,675    226,224     72,896    61,425    76,808     484,966      139    129,528   360,668  2,358,625 3,063,083
                                                                                                                                           (continued on next page)




                                                                                                                                                          59
                                                                USAID FY 2012 Agency Financial report | FINANCIAL SECTION                              107
                                         INTRAGOVERNMENTAL COSTS AND EARNED REVENUE
                                                  by Responsibility Segment
                                                      For the Years Ended September 30, 2012 and 2011
                                                                       (In Thousands)
                                                                                                                     Latin
                                                                                  Europe                            America
                                                                                    &     Global                       &        Middle        2012         2011
Objective                    Africa      Asia     OAPA      DCHA        EGAT      Eurasia Health       IDEA        Caribbean     East         Total        Total

Economic Growth
  Intragovernmental Costs      57,015    32,417    20,389          2    116,533     10,801 	– 	–                      35,492  23,159    295,808    289,077
  Public Costs                650,098   351,949   684,508        257    640,526    211,443         -    1,923        284,573 649,515  3,474,792  3,848,084
     Total Program Costs      707,113   384,366   704,897        259    757,059    222,244         -    1,923       320,065  672,674  3,770,600  4,137,161
  Intragovernmental         	(2,465) 	(2,428) 	(1,901) 	– 	(111,938) 	(1,198) 	– 	–                                	(3,409) 	(2,815) 	(126,154) 	(169,667)
     Earned Revenue
  Public Earned Revenue     	(85) 	(84) 	(64) 	– 	(181,709) 	(41) 	– 	–                                            	(47) 	(82) 	(182,112) 	(718,266)
     Total Earned Revenue 	(2,550) 	(2,512) 	(1,965) 	– 	(293,647) 	(1,239) 	– 	–                                  	(3,456) 	(2,897) 	(308,266) 	(887,933)
Net Program Costs            704,563    381,854   702,932        259    463,412   221,005          -   1,923        316,609      669,777     3,462,334    3,249,228

Humanitarian Assistance
  Intragovernmental Costs         16      6,864     1,494     81,475 	–            1,314
                                                                                      187 	– 	–
                                                                                             92,723   151,850          1,373
  Public Costs                   600     24,306    25,937   1,098,779     8,367   37,081
                                                                                     4,4111,220,111-1,487,936  -      20,630
     Total Program Costs   616  31,170  27,431 1,180,254 8,367 4,598 - -  22,003  38,395  1,312,834 1,639,786
  Intragovernmental       	(1) 	(224) 	(65) 	(5,410) 	– 	(22) 	– 	– 	(70) 	(131) 	(5,923) 	(5,882)
     Earned Revenue
  Public Earned Revenue 	– 	(8) 	(2) 	(188) 	– 	(1) 	–                   	(2) 	(5) 	(206) 	(2,264)
     Total Earned Revenue 	(1) 	(232) 	(67) 	(5,598) 	– 	(23) 	– 	– 	(72) 	(136) 	(6,129) 	(8,146)
Net Program Costs          615 30,938  27,364 1,174,656  8,367 4,575 - - 21,931  38,259  1,306,705 1,631,640

Operating Unit Management
  Intragovernmental Costs 21,306         10,331    26,390     36,319     39,136     13,855 	–             74          12,9857,426 167,822 148,595
  Public Costs                 93,213    44,654   114,699     80,737     33,651     36,008         -    2,764              25,370
                                                                                                                      57,915      489,011 382,242
     Total Program Costs      114,519    54,985   141,089    117,056     72,787     49,863         -    2,838       70,900 32,796 656,833 530,837
  Intragovernmental         	(539) 	(329) 	(316) 	(441) 	(723) 	(246) 	– 	–                                        	(312) 	(86) 	(2,992) 	(2,223)
     Earned Revenue
  Public Earned Revenue     	(19) 	(11) 	(11) 	(15) 	(25) 	(8) 	– 	–                                               	(11) 	(3) 	(103) 	(742)
     Total Earned Revenue 	(558) 	(340) 	(327) 	(456) 	(748) 	(254) 	– 	–                                          	(323) 	(89) 	(3,095) 	(2,965)
Net Program Costs            113,961     54,645   140,762   116,600      72,039    49,609          -   2,838        70,577 32,707 653,738 527,872
Net Cost of Operations $	1,863,380 $	837,666 $	2,793,734 $	1,587,992 $	621,938 $	605,029 $	484,966 $	5,075         $	842,392   $	1,501,193 $	11,143,365 $	11,243,693




                                                                                                                                                             60
     108                     USAID FY 2012 Agency Financial report | FINANCIAL SECTION
NOTE 17. SUBORGANIZATION PROGRAM COSTS/PROGRAM COSTS BY SEGMENT

The Suborganization Program Costs/                          goals while the remaining bureaus and              Technical Bureaus. The Geographic
Program Costs by Segment categorizes                        offices support the operations of these            Bureaus include: Africa; Asia; Middle
costs and revenues by Objectives, Program                   bureaus. To report the full cost of program        East; Latin America and the Caribbean;
Areas and Responsibility Segment.                           outputs, the cost of support bureaus and           and Europe and Eurasia; and Afghanistan
                                                            offices are allocated to the outputs of            and Pakistan (OAPA).
A responsibility segment is the component                   the geographic and technical bureaus.
that carries out a mission or major line of                 Intra-agency eliminations are allocated to         Technical Bureaus are referred to as
activity, and whose managers report directly                Program Areas to reflect total costs.              Democracy, Conflict, and Humanitarian
to top management. The geographic and                                                                          Assistance (DCHA); Economic Growth,
technical bureaus of USAID (below) meet                     The FY 2012 Consolidated Statement of              Agriculture and Trade (EGAT) and
the criteria of a responsibility segment.                   Net Cost major responsibility segments             Global Health (GH). In FY 2012 Q2,
These bureaus directly support the Agency                   are (i) the Geographic Bureaus and (ii) the        IDEA was added as a Technical Bureau.



                                               Schedule of Costs by Responsibility Segment
                                                                    As of September 30, 2012 and 2011
                                                                              (In Thousands)
                                                                            Europe                       Latin                                 2012         2011
                                                                              &        Global          America &     Middle                 Consolidated Consolidated
Objective                        Africa       Asia      DCHA       EGAT     Eurasia    Health   IDEA   Caribbean      East      OAPA           Total        Total
Peace and Security
	Counterterrorism
		Gross Costs                 $	16,807 $	353 $	50                  $	– $	–             $	– $	–         $	–          $	3,178     $	– $	20,388               $	29,344
		Less: Earned Revenues 	(53) 	(3) 	–                              	– 	–               	– 	–           	–           	(5) 	– 	(61)                          	(107)
		Net Program Costs                16,754        350        50     	– 	–               	– 	–           	–               3,173   	–              20,327             29,237
  Combating Weapons of Mass Destruction (WMD)
		Gross Costs                 	– 	–                         50     	–         30,351   	– 	–           	–           	–          	–             30,401              13,790
		Less: Earned Revenues 	– 	– 	–                                   	– 	(295) 	– 	–                     	–           	–          	–          	(295)         	(165)
		Net Program Costs           	– 	–                         50     	–         30,056   	– 	–           	–           	–          	–             30,106              13,625
  Stabilization Operations and Security Sector Reform
		Gross Costs                         678       7,066   	–         	–          2,301   	– 	–              20,304        5,112       8,505       43,966             36,398
		Less: Earned Revenues 	(2) 	(27) 	–                              	– 	(14) 	– 	–                      	(98) 	(23) 	(17)                          (181)    	(139)
		Net Program Costs                   676       7,039   	–         	–          2,287   	– 	–              20,206        5,089       8,488       43,785             36,259
  Counternarcotics
		Gross Costs                 	–                6,173       50     	–           365    	– 	–             110,266    	–            102,077      218,931            303,326
		Less: Earned Revenues 	– 	(166) 	–                               	– 	(3) 	– 	–                       	(482) 	–                	(245) 	(896)              	(1,943)
		Net Program Costs           	–                6,007       50     	–           362    	– 	–             109,784    	–            101,832      218,035            301,383
  Transnational Crime
		Gross Costs                         128       8,172      195        58       4,188   	– 	–               1,115    	–          	–              13,856             15,483
		Less: Earned Revenues 	(1) 	(38)                           (1)       (1) 	(22) 	– 	–                 	(3) 	(1) 	–                                (67)    	(67)
		Net Program Costs                   127       8,134      194        57       4,166   	– 	–               1,112    	(1) 	–                     13,789             15,416
  Conflict Mitigation and Reconciliation
		Gross Costs                      47,161     23,464    143,733     7,852     35,769   	– 	–               3,059        5,233      74,027      340,298            543,432
		Less: Earned Revenues 	(201) 	(244)                      (692) 	(84) 	(188) 	– 	–                          (21)          (6) 	(189) 	(1,625)             	(2,308)
		Net Program Costs                46,960     23,220    143,041     7,768     35,581   	– 	–               3,038        5,227      73,838      338,673            541,124
     Total Peace and
     Security                      64,517     44,750    143,385     7,825    72,452 	– 	–                134,140       13,488    184,158      664,715            937,044

                                                                                                                                                   (continued on next page)




                                                                                                                                                                   61
                                                                    USAID FY 2012 Agency Financial report | FINANCIAL SECTION                                   109
                                      Schedule of Costs by Responsibility Segment (continued)
                                                                             As of September 30, 2012 and 2011
                                                                                       (In Thousands)
                                                                                       Europe                        Latin                                 2012         2011
                                                                                         &        Global           America &    Middle                  Consolidated Consolidated
Objective                         Africa          Asia      DCHA            EGAT       Eurasia    Health    IDEA   Caribbean     East       OAPA           Total        Total
Governing Justly and Democratically
   Rule of Law and Human Rights
		Gross Costs                       26,372        28,369        2,271         1,325      37,085   	– 	–               67,215      30,281       44,375        237,293          233,098
		Less: Earned Revenues 	(130) 	(161) 	(24) 	(13) 	(220) 	– 	–                                                     	(319) 	(92) 	(127) 	(1,086) 	(1,245)
		Net Program Costs                 26,242        28,208        2,247         1,312      36,865   	– 	–               66,896      30,189       44,248        236,207          231,853
   Good Governance
		Gross Costs                       94,527        69,614      47,628          6,194      54,290   	– 	–               65,656     187,036    1,400,510       1,925,455       1,020,159
		Less: Earned Revenues 	(348) 	(538) 	(242) 	(44) 	(289) 	– 	–                                                    	(365) 	(458) 	(2,801) 	(5,085) 	(4,787)
		Net Program Costs                 94,179        69,076      47,386          6,150      54,001   	– 	–               65,291     186,578    1,397,709       1,920,370       1,015,372
   Political Competition and Consensus-Building
		Gross Costs                       46,144        20,181      12,210     	–              29,146   	– 	–               16,294      28,952       39,288        192,215          257,812
		Less: Earned Revenues 	(283) 	(168) 	(176) 	– 	(172) 	– 	–                                                       	(133) 	(77) 	(106) 	(1,115) 	(1,640)
		Net Program Costs                 45,861        20,013      12,034     	–              28,974   	– 	–               16,161      28,875       39,182        191,100          256,172
   Civil Society
		Gross Costs                       47,320        28,657      18,964          1,428      61,093   	–         175      21,347     141,158       31,235        351,377          333,136
		Less: Earned Revenues 	(174) 	(150)                            (435) 	(20)              (353) 	– 	–                    (88)       (506)         (80) 	(1,806) 	(1,707)
		Net Program Costs                 47,146        28,507      18,529          1,408      60,740   	–         175      21,259     140,652       31,155        349,571          331,429
      Total Governing
      Justly and
      Democratically              213,428     145,804         80,196         8,870     180,580 	–            175     169,607     386,294    1,512,294      2,697,248        1,834,826

Investing in People
   Health
		Gross Costs                      485,473     103,722          9,763        16,575      51,243   998,220    139      47,890     160,213      157,176       2,030,414       1,759,827
		Less: Earned Revenues 	(10,434) 	(2,033) 	(54) 	(215) 	(713) 	(513,254) 	–                                       	(868) 	(525) 	(586) 	(528,682) 	(175,628)
		Net Program Costs                475,039     101,689          9,709        16,360      50,530   484,966    139      47,022     159,688      156,590       1,501,732       1,584,199
   Education
		Gross Costs                      256,374        67,375      15,327         24,207      16,707   	– 	–               47,992     131,660      104,411        664,053          746,042
		Less: Earned Revenues 	(905) 	(481) 	(71) 	(233) 	(107) 	– 	–                                                    	(165) 	(365) 	(76,137) 	(78,464) 	(3,555)
		Net Program Costs                255,469        66,894      15,256         23,974      16,600   	– 	–               47,827     131,295       28,274        585,589          742,487
   Social and Economic Services and Protection for Vulnerable Populations
		Gross Costs                       35,968        11,270      48,189         31,326       9,745   	– 	–               34,929      70,179       41,705        283,311          760,575
		Less: Earned Revenues               (180) 	(178)               (258)      (10,235)        (67) 	– 	–             	(250) 	(494) 	(345) 	(12,007) 	(24,178)
		Net Program Costs                 35,788        11,092      47,931         21,091       9,678   	– 	–               34,679      69,685       41,360        271,304          736,397
      Total Investing
      in People                   766,296     179,675         72,896        61,425      76,808    484,966    139     129,528     360,668     226,224       2,358,625        3,063,083

Economic Growth
   Macroeconomic Foundation for Growth
		Gross Costs                       21,815        11,009            3        59,611      12,132   	– 	–                6,730     409,466        9,493        530,259          720,843
		Less: Earned Revenues 	(54) 	(42) 	–                                   	(47,355) 	(51) 	– 	–                     	(10) 	(2,051) 	(15) 	(49,578) 	(399,114)
		Net Program Costs                 21,761        10,967            3        12,256      12,081   	– 	–                6,720     407,415        9,478        480,681          321,729
   Trade and Investment
		Gross Costs                       32,015        23,110            2        10,752      14,974   	–         226      26,263      11,766       24,932        144,040          137,193
		Less: Earned Revenues 	(134) 	(140) 	–                                 	(142) 	(92) 	– 	–                        	(120) 	(43) 	(66) 	(737) 	(714)
		Net Program Costs                 31,881        22,970            2        10,610      14,882   	–         226      26,143      11,723       24,866        143,303          136,479
   Financial Sector
		Gross Costs                       10,431         5,441            2       500,142      19,882   	–         149         529      20,510        7,740        564,826          566,541
		Less: Earned Revenues 	(47) 	(40) 	–                                   	(243,570) 	(124) 	– 	–                   	(2,045) 	(85) 	(22) 	(245,933) 	(472,398)
		Net Program Costs                 10,384         5,401            2       256,572      19,758   	–         149      (1,516)     20,425        7,718        318,893           94,143
   Infrastructure
		Gross Costs                      141,854        58,487   	–                 5,652      61,657   	–         190      54,297       9,568     430,369         762,074          870,795
		Less: Earned Revenues 	(613) 	(506) 	–                                 	(88) 	(323) 	– 	–                        	(283) 	(48) 	(1,222) 	(3,083) 	(4,915)
		Net Program Costs                141,241        57,981   	–                 5,564      61,334   	–         190      54,014       9,520     429,147         758,991          865,880
                                                                                                                                                               (continued on next page)


                                                                                                                                                                                   62
    110                         USAID FY 2012 Agency Financial report | FINANCIAL SECTION
                                         Schedule of Costs by Responsibility Segment (continued)
                                                                         As of September 30, 2012 and 2011
                                                                                   (In Thousands)
                                                                                  Europe                           Latin                                  2012         2011
                                                                                    &         Global             America &     Middle                  Consolidated Consolidated
Objective                        Africa         Asia       DCHA        EGAT       Eurasia     Health    IDEA     Caribbean      East       OAPA           Total        Total
  Agriculture
		Gross Costs                      341,463     123,466           2       56,736     25,574   	–            328       59,425       51,125     124,911        783,030      935,266
		Less: Earned Revenues 	(1,171) 	(1,040) 	–                          	(1,074) 	(143) 	– 	–                      	(279) 	(157) 	(349) 	(4,213) 	(5,911)
		Net Program Costs                340,292     122,426           2       55,662     25,431   	–            328       59,146       50,968     124,562        778,817      929,355
  Private Sector Competitiveness
		Gross Costs                       34,603      41,138         104        7,667     72,641   	– 	–                   48,858       61,895      71,968        338,874      301,468
		Less: Earned Revenues 	(114) 	(228) 	–                              	(106) 	(429) 	– 	–                        	(219) 	(189) 	(211) 	(1,496) 	(1,600)
		Net Program Costs                 34,489      40,910         104        7,561     72,212   	– 	–                   48,639       61,706      71,757        337,378      299,868
  Economic Opportunity
		Gross Costs                       27,104      10,795           2       22,129      6,198   	–          1,030       10,414       71,370      32,673        181,715      188,923
		Less: Earned Revenues 	(84) 	(79) 	–                                	(281) 	(29) 	– 	–                         	(65) 	(178) 	(70) 	(786) 	(1,000)
		Net Program Costs                 27,020      10,716           2       21,848      6,169   	–          1,030       10,349       71,192      32,603        180,929      187,923
  Environment
		Gross Costs                       97,828     110,922         145       94,369      9,185   	– 	–                  113,548       36,974       2,811        465,782      416,132
		Less: Earned Revenues 	(333)                    (439) 	(1)             (1,030) 	(47) 	– 	–                     	(434) 	(146) 	(10) 	(2,440) 	(2,281)
		Net Program Costs                 97,495     110,483         144       93,339      9,138   	– 	–                  113,114       36,828       2,801        463,342      413,851
     Total Economic
     Growth                        704,563     381,854         259     463,412    221,005 	–             1,923     316,609       669,777    702,932       3,462,334    3,249,228

Humanitarian Assistance
  Protection, Assistance and Solutions
		Gross Costs                 	–                27,790    1,063,016   	–             4,575   	– 	–                   22,003       38,397      24,743       1,180,524    1,503,723
		Less: Earned Revenues 	– 	(222) 	(5,074) 	–                                          (22) 	– 	–                	(70)              (138) 	(61)               (5,587) 	(7,565)
		Net Program Costs           	–                27,568    1,057,942   	–             4,553   	– 	–                   21,933       38,259      24,682       1,174,937    1,496,158
  Disaster Readiness
		Gross Costs                            615     3,362      117,237       8,367 	–           	– 	–               	–           	–           	–               129,581      133,772



                                                                                           D
		Less: Earned Revenues 	–                          (9)        (525) 	– 	–                   	– 	–                       (2) 	–            	–                  (536) 	(557)




                                                                                      AT E
		Net Program Costs                      615     3,353      116,712       8,367 	–           	– 	–                       2    	–           	–               129,045      133,215




                                                                                  UPD
  Migration Management




                                                       NOT
		Gross Costs                 	–                   17            2    	–               22    	– 	–               	–           	–               2,688          2,729        2,291
		Less: Earned Revenues 	– 	– 	–                                      	– 	–                  	– 	–               	–           	–           	(6) 	(6) 	(24)
		Net Program Costs           	–                   17            2    	–               22    	– 	–               	–           	–               2,682          2,723        2,267
     Total Humanitarian
     Assistance                          615    30,938    1,174,656      8,367      4,575 	– 	–                     21,931        38,259     27,364       1,306,705    1,631,640

Operating Unit Management
  Cross-cutting Management and Staffing
		Gross Costs                        1,949         508         125         936       1,128   	– 	–               	–                2,870       1,371          8,887       26,764
		Less: Earned Revenues 	(26) 	(8) 	(1) 	(3) 	(7) 	– 	–                                                          	–           	(12) 	(3) 	(60) 	(124)
		Net Program Costs                  1,923         500         124         933       1,121   	– 	–               	–                2,858       1,368          8,827       26,640
  Program Design and Learning
		Gross Costs                       26,401       5,782        4,361      12,989      6,574   	–          1,533        6,508       10,124      27,524        101,796       93,355
		Less: Earned Revenues 	(127) 	(60) 	(19) 	(171) 	(38) 	– 	–                                                    	(36) 	(30) 	(80) 	(561) 	(515)
		Net Program Costs                 26,274       5,722        4,342      12,818      6,536   	–          1,533        6,472       10,094      27,444        101,235       92,840
  Administration and Oversight
		Gross Costs                       86,169      48,694      112,570      58,861     42,164   	–          1,305       64,391       19,802     112,194        546,150      410,718
		Less: Earned Revenues 	(405)                    (271)        (437) 	(573)          (211) 	– 	–                 	(286)              (47) 	(244) 	(2,474) 	(2,326)
		Net Program Costs                 85,764      48,423      112,133      58,288     41,953   	–          1,305       64,105       19,755     111,950        543,676      408,392
     Total Operating
     Unit Management               113,961      54,645     116,599      72,039     49,610 	–             2,838      70,577        32,707    140,762        653,738       527,872
Net Cost of Operations        $	1,863,380 $	837,666 $	1,587,991       $	621,938 $	605,030    $	484,966 $	5,075   $	842,392    $	1,501,193 $	2,793,734 $	11,143,365 $	11,243,693




                                                                                                                                                                          63
                                                                        USAID FY 2012 Agency Financial report | FINANCIAL SECTION                                       111
NOTE 18. STATEMENT OF BUDGETARY RESOURCES

The Combined Statement of Budgetary            USAID’s total budgetary resources were       D. Legal Arrangements Affecting
Resources presents information about           $23.2 billion and $23.8 billion for the      the Use of Unobligated Balances:
total budgetary resources available to         years ended September 30, 2012 and
USAID and the status of those resources,       2011, respectively.                          The “Consolidated Appropriations Act”
as of September 30, 2012 and 2011.                                                          signed into law as Public Law 112-74
                                                                                            provides to USAID extended authority
A. Apportionment Categories of Obligations Incurred:                                        to obligate funds. USAID’s appropria-
                                                                                            tions have consistently provided essen-
   Apportionment Categories of Obligations Incurred                                         tially similar authority, now known
                                                                                            as “7011/511” authority. Under this
                                       (In Thousands)
                                                                                            authority funds shall remain available for
                                                            2012              2011          obligation for an extended period if such
 Category A, Direct                                      $	1,405,504      $	1,430,019       funds are obligated within their initial
 Category B, Direct                                         11,256,372        11,869,188    period of availability. Any subsequent
 Category A, Reimbursable                                      42,406            38,866     recoveries (deobligations) of these funds
 Category B, Reimbursable                                     589,811           157,035     become unobligated balances that are
 Total                                                   $	13,294,093     $	13,495,108
                                                                                            available for reprogramming by USAID
                                                                                            (subject to OMB approval through the
                                                                                            apportionment process).		
B. Borrowing Authority, End of                 C. Permanent Indefinite
Period and Terms of Borrowing                  Appropriations:                              E. Unpaid Obligations:
Authority Used:
                                               USAID has permanent indefinite appro-        Unpaid Obligations for the periods ended
The Agency had $0 in borrowing                 priations relating to specific Federal       September 30, 2012 and 2011 were $18.3
authority in FY 2012 and $96 thousand          Credit Reform Program and Liquidating        and $17.5 billion, respectively.		
in borrowing authority in FY 2011.             appropriations. USAID is authorized          			
Borrowing authority is indefinite and          permanent indefinite authority for Federal
authorized under the Federal Credit            Credit Reform Program appropria-
Reform Act of 1990 (Title XIII, Subtitle       tions for subsidy reestimates and Federal
B, P.L. 101-508), and is used to finance       Credit Reform Act of 1990. At year-end
obligations during the current year,           FY 2012, there is $1.9 billion in avail-
as needed. 				                                ability related to Federal Credit Reform
	                                              Program and Liquidating appropriations.	
                                               				




                                                                                                                                     64
112                   USAID FY 2012 Agency Financial report | FINANCIAL SECTION
F. Difference between the Statement of Budgetary Resources and the
Budget of the U.S. Government:

There are no material differences between                Budget with actual numbers for 2012 has      FY 2012 reported results when the budget
the Statement of Budgetary Resources                     not yet been published. USAID expects        becomes available in February 2013.
for FY 2012 and the President’s Budget                   no material difference between the Presi-
submission for FY 2012. The President’s                  dent’s Budget “actual” column and the


                          Difference between the Statement of Budgetary Resources and
                                        the Budget of the U.S. Government
                                                                        (In Thousands)
                                                                                                             Distributed
                                                                         Budgetary                           Offsetting
                                 2012                                    Resources        Obligations         Receipts        Net Outlays
 Combined Statement of Budgetary Resources                              $	23,247,701      $	13,294,093      $	(923,914)       $	10,700,013
 Difference #1: Parent Activity Reported in FACTSII by USAID                8,230,939         6,315,809     	–                     6,425,900
 Difference #2: Child Activity Reported in FACTSII by Child Agencies         (995,597)         (635,434)    	–                      (503,739)
 Difference #3: Reported in the SBR but excluded from SF-133s                   1,111     	–                	–                        (8,856)
 Difference #4:Parent/Child Reporting Differences                             (24,588)          (24,588)    	–                	–
 Difference #5:Reporting Difference between the SBR and SF-133s                (6,205)           (1,453)    	–                      202,199
 Difference #6: Credit Financing and Suspense                           	–                	–                	–                	–
 Budget of the U.S. Government                                          $	30,453,361      $	18,948,426      $	(923,914)       $	16,815,518




                                                                                                                                                65
                                                                 USAID FY 2012 Agency Financial report | FINANCIAL SECTION                     113
NOTE 19. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
USAID presents the Consolidated Statement of Net Cost using the accrual basis of accounting. This differs from the obligation-
based measurement of total resources supplied, both budgetary and from other sources, on the Combined Statement of Budgetary
Resources. The Federal Financial Accounting Standard No. 7 requires “a reconciliation of proprietary and budgetary information in a
way that helps users relate the two.” The focus of this presentation is to reconcile budgetary net obligations to the net cost of operations.
The objective of this information is to categorize the differences between budgetary and financial (proprietary) accounting.

                  RECONCILIATION OF OBLIGATIONS INCURRED TO NET COST OF OPERATIONS
                                                      For the Years Ended September 30, 2012 and 2011
                                                                       (In Thousands)
                                                                                                           2012                 2011
 Resources Used to Finance Activities:
      Budgetary Resources Obligated
         Obligations Incurred                                                                           $	13,294,093        $	13,495,108
         Spending Authority From Offsetting Collections (FY 2012 includes Change in                        (1,021,625)         (1,029,378)
            Unfilled Customer Orders previously broken out in the SBR)
         Change in Unfilled Customer Orders                                                             	–                       (227,554)
         Downward Adjustments of Obligations                                                                (472,020)          (2,046,698)
         Offsetting Receipts                                                                                (923,914)            (377,859)
      Net Obligations                                                                                     10,876,534            9,813,619
      Other Resources Used to Finance Activities                                                              29,994               16,100
      Resources Used to Finance Activities                                                                10,906,528            9,829,719
      Resources Used to Finance Items Not Part of Net Cost of Operations                                   1,029,033            1,813,777
 Total Resources Used to Finance Net Cost of Operations                                                   11,935,561           11,643,496

 Components of the Net Cost of Operations:
      Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods         (59,980)             (34,054)
      Components of Net Cost of Operations That Will Not Require or Generate Resources                      (732,216)            (365,749)
 Net Cost of Operations                                                                                 $	11,143,365        $	11,243,693




                                                                                                                                             66
114                     USAID FY 2012 Agency Financial report | FINANCIAL SECTION
NOTE 20. IMPACT OF ADJUSTMENTS TO Fund balance with treasury,
ADVANCES, AND UNPAID/PAID OBLIGATIONS
During FY 2012, USAID reconciled its general ledger (GL) to its subsidiary ledgers. As a result of these reconciliations, USAID
was required to post several adjustments in its GL. The impacts of those GL adjustments are shown for each financial statement
in the table below.

                              IMPACT OF ADJUSTMENTS TO Fund balance with treasury,
                                      ADVANCES, AND UNPAID/PAID OBLIGATIONS
                                                                            (In Thousands)
 Balance Sheet FY 2012                                                                                     USAID             Child Agencies
 Assets
     Cash and Other Monetary Assets                                                                      $	(36,947)           $	(20,905)
     Advances                                                                                                 305,039             172,521
     Total Assets                                                                                        $	268,093            $	151,616

 Liabilities
     Liability for Deposit Funds, Clearing Accounts, and Undeposited Collections                         	–                   	–
 Total Liabilities                                                                                       	–                   	–

 Net Position
     Unexpended Appropriations                                                                                266,212             151,616
     Cumulative Results of Operations                                                                           1,880         	–
     Total Net Position                                                                                       268,093             151,616
     Total Liabilities and Net Position                                                                  $	268,093            $	151,616


 Statement of Budgetary Resources FY 2012
 Total Resources                                                                                         $	–                  $	–

 Total Status of Resources                                                                               $	–                  $	–

     Obligations Incurred                                                                                	–                   	–
     Unpaid Obligations, End of Year (Gross)                                                                   45,662              95,907
 Outlays, (Gross) (-)                                                                                    $	(45,662)           $	(95,907)


During a review of the accounting adjustments posted into the Agency’s GL, it was subsequently discovered that the adjust-
ments were partially incorrect because the accounting journals were not updating correctly for a certain type of advance refund
returned to the Agency. Although the analysis is not complete, it appears the Agency has understated its cash position, overstated
both proprietary and budgetary advances (prepayments) outstanding, and understated unliquidated obligations.

The Agency intends to make the necessary corrections during FY 2013. The correction will involve reclassifying assets,
increasing the Agency’s cash position and reducing the outstanding prepayments. In addition, the Agency will change the status
for some obligations from prepaid to unpaid. The Agency is currently unable to provide an exact amount of the reclassification
adjustment but the Agency believes the adjustment will not exceed $150 million.




                                                                                                                                             67
                                                                 USAID FY 2012 Agency Financial report | FINANCIAL SECTION                  115
                                                                  68
116   USAID FY 2012 Agency Financial report | FINANCIAL SECTION
Financial section


Required Supplementary
Information
(Above) This potable water system in the San Lorenzo         (Preceding page) In 2011, USAID and other donors provided
municipality of Ecuador is part of the Northern Border       11 million free insecticide-treated mosquito nets through
Development Program. Before its construction in 2002,        a mass distribution campaign to Kenyans. Malaria kills an
families in the area carried water from unprotected and      estimated 34,000 children under age 5 in Kenya every year.
contaminated sources, such as rivers and wells, which        PHOTO: Wendy Stone / USAID
made young children in particular sick. PHOTO: IOM Ecuador
                                                                                                                          70
        Statement of budgetary
        resources


          Required Supplementary Information: Combining Schedule of Budgetary Resources
                                      For the Year Ended September 30, 2012
                                                                                                      (In Thousands)
                                                                                                                                              Assistance
                                                                     Civilian     Assistance                  International                    for New
                                                                  Stabilization   for Eastern   Development     Disaster        Economic     Independent    Child      Credit-
                                     Recovery Act     Operating     Initiative      Europe       Assistance    Assistance     Support Fund      States     Survival   Financing      Other     Parent Fund   Combined Total

                                        302            1000          305            1010           1021          1035            1037          1093        1095

Budgetary Resources:
   Unobligated Balance Brought
   Forward, October 1                $	8            $	437,013     $	7,570         $	3,702       $	1,092,484 $	237,276 $	4,642,696 $	14,362 $	31,768 $	2,421,365 $	1,086,318 $	322,249 $	10,296,811

   Recoveries of Prior Year Unpaid
   Obligations                       	–                120,412       1,945           2,572          48,899         49,223         158,457       7,228       13,595            20     39,473       30,196           472,020
   Other Changes in Unobligated
   Balance (+ or -)                  	–             	(147) 	–                        2,367      	(54,510) 	– 	(183,467) 	(1,609) 	(107) 	(71) 	(110,455)                                        229,597 	(118,402)
   Unobligated Balance from Prior
   Year Budget Authority, Net               8          557,278       9,515           8,641        1,086,873       286,499       4,617,686      19,981       45,256    2,421,314    1,015,336    582,042       10,650,429
   Appropriations (Discretionary
   and Mandatory)                    	–              1,347,300    	–              	–              2,519,950       975,000       5,663,207 	– 	– 	(18)                              1,070,208 	–               11,575,647
   Spending Authority from
   Offsetting Collections
   (Discretionary
   and Mandatory)                    	–                 38,717           69       	–            	(14,226)              254 	(48,551) 	– 	–                             209,557      422,249     413,556        1,021,625
Total Budgetary Resources            $	8            $	1,943,295 $	9,584           $	8,641 $	3,592,597 $	1,261,753 $	10,232,342 $	19,981 $	45,256 $	2,630,853 $	2,507,793 $	995,598 $	23,247,701


Status of Budgetary Resources:
   Obligations Incurred:             $	–            $	1,391,388   $	3,734         $	3,149       $	2,645,619 $	1,122,724 $	5,273,599 $	5,933 $	16,722 $	752,560 $	1,443,231 $	635,434 $	13,294,093
       Unobligated balance, End
       of Year:
            Apportioned              	–                480,022       5,850           1,825         882,983        139,029       4,996,245       7,588       15,960     309,839      527,804     341,129        7,708,274
            Unapportioned                   8           71,885    	–                 3,667          63,995 	– 	(37,502)                         6,460       12,574    1,568,454     536,758       19,035       2,245,334
   Total Unobligated Balance, End
   of Year                                  8          551,907       5,850           5,492         946,978        139,029       4,958,743      14,048       28,534    1,878,293    1,064,562    360,164        9,953,608

Total Budgetary Resources            $	8            $	1,943,295 $	9,584           $	8,641 $	3,592,597 $	1,261,753 $	10,232,342 $	19,981 $	45,256 $	2,630,853 $	2,507,793 $	995,598 $	23,247,701



                                                                                                                                                                                                 (continued on next page)




                                                                                                                                                                                                              71
                                                                                          USAID FY 2012 Agency Financial report | FINANCIAL SECTION                                                          119
    Required Supplementary Information: Combining Schedule of Budgetary Resources (continued)
                                   For the Year Ended September 30, 2012
                                                                                                       (In Thousands)
                                                                                                                                               Assistance
                                                                      Civilian     Assistance                  International                    for New
                                                                   Stabilization   for Eastern   Development     Disaster        Economic     Independent    Child      Credit-
                                      Recovery Act     Operating     Initiative      Europe       Assistance    Assistance     Support Fund      States     Survival   Financing     Other     Parent Fund   Combined Total

                                         302            1000          305            1010           1021          1035            1037          1093        1095

Change in Obligated Balance:
   Unpaid Obligations, Brought
   Forward, October 1 (Gross)         $	968          $	791,833     $	5,546         $	45,046      $	4,117,023 $	913,780 $	8,904,627 $	70,750 $	77,333 $	(282) $	1,883,059 $	695,144 $	17,504,827
   Uncollected Customer Payments
   from Federal Sources, Brought
   Forward, October 1 (-)        	–                  	(9,883) 	–                   	(35) 	(2,272) 	(203)                                  2 	(39) 	(1,006)                     35 	(20,613) 	(346) 	(34,360)
       Obligated Balance, Start
       of Year (Net), Before
       Adjustments (+ or -)               968           781,950       5,546          45,011        4,114,751       913,577       8,904,629      70,711       76,327 	(247)         1,862,446    694,798       17,470,467
   Adjustment to Obligated Balance,
   Start of Year (Net) (+ or -)     	–               	–            	–              	–            	– 	– 	– 	– 	– 	– 	– 	– 	–
   Obligated Balance, Start of Year
   (Net), as Adjusted                     968           781,950       5,546          45,011        4,114,751       913,577       8,904,629      70,711       76,327 	(247)         1,862,446    694,798       17,470,467
   Obligations Incurred               	–              1,391,388       3,734           3,149        2,645,619    1,122,724        5,273,599       5,933      16,722      752,560    1,443,231    635,434       13,294,093
   Outlays (gross) (-)                	(968)         	(1,318,250) 	(4,109) 	(24,021) 	(1,689,719) 	(946,023) 	(4,915,149) 	(34,628) 	(40,767) 	(750,958) 	(1,742,328) 	(520,602) 	(11,987,522)
   Change in Uncollected Customer
   Payments from Federal Sources
   (+ or -)                       	–                 	(1,381) 	–                   	–                 2,310 	– 	(2) 	– 	– 	– 	(7,358)                                                                346 	(6,085)
   Recoveries of Prior Year Unpaid
   Obligations (-)                    	–             	(120,412) 	(1,945) 	(2,572) 	(48,898) 	(49,223) 	(158,457) 	(7,228) 	(13,596) 	(20) 	(39,473) 	(30,196) 	(472,020)

   Obligated balance, End of Year
       Unpaid Obligations, End of
       Year (Gross)                   	–                744,559       3,226          21,602        5,024,025    1,041,258        9,104,620      34,827      39,692         1,300   1,544,489    779,780       18,339,378
       Uncollected Customer
       Payments from Federal
       Sources, End of Year           	–             	(11,264) 	–                  	(35)                   38 	(203) 	– 	(39) 	(1,006)                                         35 	(27,971) 	– 	(40,445)
   Obligated Balance, End of
   Year (Net)                         $	–            $	733,295 $	3,226             $	21,567      $	5,024,063 $	1,041,055 $	9,104,620 $	34,788 $	38,686 $	1,335 $	1,516,518 $	779,780 $	18,298,933


Budget Authority and
Outlays, Net:
   Budget Authority, Gross
   (Discretionary and Mandatory)      $	–            $	1,386,017   $	69            $	–           $	2,505,724 $	975,254 $	5,614,656 $	– $	– $	209,540 $	1,492,456 $	413,556 $	12,597,272
   Actual Offsetting Collections
   (Discretionary and Mandatory)      	–             	(37,336) 	(69) 	–                          	(2,049) 	(254) 	(77,034) 	– 	– 	(209,558)                                        (944,346) 	(16,863)        (1,287,509)
   Change in Uncollected Customer
   Payments from Federal Sources
   (Discretionary and Mandatory) 	–                  	(1,381) 	–                   	–                 2,310 	– 	(2) 	– 	– 	– 	(7,358)                                                                346 	(6,085)
   Budget Authority, Net
   (Discretionary and Mandatory)      $	–            $	1,347,300   $	–             $	–           $	2,505,985 $	975,000 $	5,537,620 $	– $	– $	(18) $	540,752 $	397,039 $	11,303,678

   Outlays, Gross (Discretionary and
   Mandatory)                        $	968           $	1,318,250   $	4,109         $	24,021      $	1,689,719 $	946,023 $	4,915,149 $	34,628 $	40,767 $	750,958 $	1,742,328 $	520,602 $	11,987,522
   Actual Offsetting Collections
   (Discretionary and Mandatory)      	–             	(37,336) 	(69) 	–                          	(2,049) 	(254) 	(77,034) 	– 	– 	(209,558)                                        (944,346) 	(16,863)        (1,287,509)
   Outlays, Net (Discretionary and
   Mandatory)                             968         1,280,914       4,040          24,021        1,687,670       945,769       4,838,115      34,628       40,767     541,400     797,982     503,739       10,700,013
   Distributed Offsetting Receipts (-) 	–            	–            	–              	–            	– 	– 	– 	– 	– 	– 	(923,914) 	– 	(923,914)
Agency Outlays, Net
(Discretionary and Mandatory)         $	968          $	1,280,914 $	4,040           $	24,021      $	1,687,670 $	945,769 $	4,838,115 $	34,628 $	40,767 $	541,400 $	(125,932) $	503,739 $	9,776,099




                                                                                                                                                                                                               72
         120                          USAID FY 2012 Agency Financial report | FINANCIAL SECTION
MAJOR FUNDS                                                 OTHER FUNDS                                              ALLOCATIONS TO OTHER AGENCIES
Operating Funds                                             Operating Funds                                          1010 Special Assistance Initiatives
1000 Operating Expenses of USAID                            0300 Capital Investment Fund (CIF)                       1021 Development Assistance
Program Funds                                               0302 Capital Investment Fund-Recovery Act
                                                                                                                     1027 Transition Initiatives
1010 Special Assistance Initiatives                         0306 Assistance for Europe, Eurasia and Central Asia
                                                                                                                     1035 International Disaster Assistance
1021 Development Assistance                                 1007 Operating Expenses of USAID Inspector General
1035 International Disaster Assistance                      1036 Foreign Service Retirement and Disability Fund      1037 Economic Support Fund
1037 Economic Support Fund                                  Program Funds                                            1093 Assistance for the N.I.S. of the Former Soviet Union
1093 Assistance for the N.I.S. of the Former Soviet Union   0305 Civilian Stabilization Initiative                   1095 Child Survival and Disease Programs Funds
1095 Child Survival and Disease Programs Funds              1012 Sahel Development Program
                                                            1015 Complex Crisis Fund                                 ALLOCATIONS From OTHER AGENCIES
Credit-Financing Funds                                      1023 Food and Nutrition Development Assistance
                                                                                                                     1000 Operating Expenses of USAID
                                                            1024 Population and Planning & Health Dev. Asst.
4119 Israel Guarantee Financing Fund                                                                                 1014 Africa Development Assistance
                                                            1025 Education and Human Resources, Dev. Asst.
4137 Direct Loan Financing Fund                                                                                      1030 Global HIV/AIDS Initiative-Appropriations Carry
                                                            1027 Transition Initiatives
4266 DCA Financing Fund                                                                                                   Over
                                                            1028 Global Fund to Fight HIV / AIDS
4342 MSED Direct Loan Financing Fund                                                                                 1031 Global Health and Child Survival
                                                            1029 Tsunami Relief and Reconstruction Fund
4343 MSED Guarantee Financing Fund                                                                                   1096 International Organizations and Programs
                                                            1038 Central American Reconciliation Assistance
4344 UE Financing Fund
                                                            1040 Sub-Saharan Africa Disaster Assistance
4345 Ukraine Financing Fund
                                                            1096 Latin American/Caribbean Disaster Recovery
4491 Egypt Guarantee Financing Fund
                                                            1500 Demobilization and Transition Fund
                                                            Trust Funds
                                                            8342 Foreign Natl. Employees Separation Liability Fund
                                                            8502 Technical Assistance, U.S. Dollars Advanced from
                                                                 Foreign Governments
                                                            8824 Gifts and Donations
                                                            Credit Program Funds
                                                            0301 Israel Program Fund
                                                            0304 Egypt Program Fund
                                                            0400 MSED Program Fund
                                                            0401 UE Program Fund
                                                            0402 Ukraine Program Fund
                                                            1264 DCA Program Fund
                                                            4103 Economic Assistance Loans - Liquidating Fund
                                                            4340 UE Guarantee Liquidating Fund
                                                            4341 MSED Direct Loan Liquidating Fund
                                                            5318 Israel Admin Expense Fund
                                                            Revolving Funds
                                                            4175 Property Management Fund
                                                            4513 Working Capital Fund
                                                            4590 Acquisition of Property, Revolving Fund




                                                                                                                                                                                 73
                                                                    USAID FY 2012 Agency Financial report | FINANCIAL SECTION                                                121
                                                                  74
122   USAID FY 2012 Agency Financial report | FINANCIAL SECTION
